<html>
<title> - FOOD FOR THOUGHT: EFFORTS TO DEFEND THE NATION'S AGRICULTURE AND FOOD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 FOOD FOR THOUGHT: EFFORTS TO DEFEND THE NATION'S AGRICULTURE AND FOOD

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2016

                               __________

                           Serial No. 114-56

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE
21-528 PDF               WASHINGTON : 2016                 
                               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a>  
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                   Martha McSally, Arizona, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Dr. R. Douglas Meckes, State Veterinarian, North Carolina 
  Department of Agriculture and Consumer Services, Veterinary 
  Division:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Dr. Tammy R. Beckham, Dean, College of Veterinary Medicine, 
  Kansas State University:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Bobby Acord, Former Administrator, Animal Plant Health 
  Inspection Service, U.S. Department of Agriculture, Testifying 
  on Behalf of the National Pork Producers Council:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28
Mr. Brian R. Williams, Assistant Extension Professor, Mississippi 
  State University:
  Oral Statement.................................................    33
  Prepared Statement.............................................    34

 
 FOOD FOR THOUGHT: EFFORTS TO DEFEND THE NATION'S AGRICULTURE AND FOOD

                              ----------                              


                       Friday, February 26, 2016

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:13 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives McSally, Walker, Loudermilk, 
Donovan, Payne, and Watson Coleman.
    Ms. McSally. The Subcommittee on Emergency Preparedness 
Response and Communications will come to order.
    The subcommittee's meeting today to receive testimony 
regarding the efforts to defend our Nation's food and 
agriculture sector. I now recognize myself for an opening 
statement.
    Let me first say this is my last subcommittee hearing that 
I will be chairing. Technically, I have actually handed over 
the gavel to my good colleague here, Mr. Donovan from New York, 
but since we had planned this hearing, we decided to do our 
change of command ceremony at the end of the hearing. So, it is 
an absolute honor to have been chairing this subcommittee and 
working with my colleagues and my Ranking Member, Mr. Payne. I 
will be remaining on the subcommittee, but I will be chairing 
the Border and Maritime Subcommittee now, which is, obviously, 
quite important for my district, and looking forward to 
continued leadership opportunities.
    Anyway back to the topic at hand. Throughout this Congress, 
the Subcommittee on Emergency Preparedness, Response, and 
Communications has taken a deep dive into the world of 
biological terrorism. We have held hearings to assess the 
biological threat, understand the scope of the biodefense 
problem, and examine Federal programs aimed at tackling some of 
the biodefense challenges. Our oversight thus far has primarily 
been on the human impacts of biological terrorism.
    Today we are going to take a different perspective, and 
look at the impacts to the Nation from a terrorist attack on, 
or natural disruption of, our agricultural or food systems. An 
agroterrorism attack would impact the most basic of human 
needs: The food we eat. Furthermore, the food and agricultural 
sector is critically important to our Nation's economy. U.S. 
food and agriculture accounts for roughly one-fifth of the 
Nation's economic activity, contributing $835 billion to the 
U.S. gross domestic product in 2014, and is responsible for 1 
out of every 12 U.S. jobs.
    In my home State of Arizona, ranching and agriculture 
contributes around $10 billion a year to the State's economy. 
An intentional attack on, or natural disruption of, U.S. 
agriculture, or food, therefore, would present a serious threat 
to this Nation and cause major economic damage on a number of 
levels.
    There will be costs related to containing disease, and 
destruction of livestock, compensating farmers for loss of 
agriculture commodities, and losses in other related 
industries, and trade embargoes imposed by other nations.
    Intelligence indicates that terrorists have discussed 
vulnerabilities in various components of this sector. Food and 
agriculture is an attractive target to terrorists, because many 
agents are easy to obtain; minimal technology is required to 
execute an attack, and our food travels across the country and 
world quickly and efficiently.
    Furthermore, even if there are few human casualties, an 
agroterrorism attack would also undermine public confidence in 
the Government, increasing general concerns about the safety of 
our food supply, as well as the effectiveness of biological 
defense planning. This goes to the heart of what we know groups 
like ISIS are trying to do, terrorize by all means possible.
    We all need to look at the impacts of the highly pathogenic 
avian influenza, or HPAI, a natural event to see how 
devastating an intentional act against our food or agriculture 
could be. Last year's outbreak of HPAI was the largest animal 
health incident in U.S. history, resulting in over $3 billion 
in economic losses, and the slaughtering of 48 million birds to 
stem the spread of the disease. Eighteen trading partners 
banned all imports of U.S. poultry and products, and an 
additional 28 trading partners imposed partial bans. This 
outbreak, and its rapid farm-to-farm spread, highlighted the 
challenge the sector faces related to effective biosecurity, 
especially during a large-scale response.
    We must ensure we are able to assess our level of 
preparedness for any type of major disruption to U.S. food or 
agriculture. Our goal today is to gain a better understanding 
of what Government, along with academia and the private sector, 
are doing to reduce vulnerabilities of the food and agriculture 
sector to a terrorist attack.
    We hope to gain a better understanding of the scope of the 
problem, and identify ways in which we, as Members of Congress 
focused on Homeland Security issues, can help prevent attacks, 
and improve our readiness and our ability to respond.
    I hope to hear about information sharing with the 
Government. Is food and agriculture engaged in our process, 
including things like the fusion centers? Are you getting the 
threat and risk information that you need? I also want to 
understand your connectedness to the human health side of 
things. Are our current biosurveillance systems integrating the 
human, animal, and plant data to form one true, ``One Health'' 
picture?
    With that, I welcome our witnesses, and I look forward to 
your testimony.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                           February 26, 2016
    Throughout this Congress, the Subcommittee on Emergency 
Preparedness, Response, and Communications has taken a deep dive into 
the world of biological terrorism. We have held hearings to assess the 
biological threat, understand the scope of the biodefense problem, and 
examine Federal programs aimed at tackling some of the biodefense 
challenges.
    Our oversight thus far has primarily been on the human impacts of 
biological terrorism. Today we are going to take a different 
perspective and look at the impacts to the Nation from a terrorist 
attack on, or natural disruption of, our agricultural or food systems.
    An agroterrorism attack would impact the most basic of human 
needs--the food we eat. Furthermore, the food and agriculture sector is 
critically important to our nation's economy. U.S. food and agriculture 
accounts for roughly one-fifth of the Nation's economic activity, 
contributed $835 billion to the U.S. gross domestic product (GDP) in 
2014, and is responsible for one out of every 12 U.S. jobs. In my home 
State of Arizona, ranching and agriculture contributes around $10 
billion a year to the State's economy.
    An intentional attack or natural disruption of U.S. agriculture or 
food, therefore, would present a serious threat to this Nation and 
cause major economic damages on a number of levels. There will be costs 
related to containing disease and destruction of livestock, 
compensating farmers for loss of agricultural commodities and losses in 
other related industries, and trade embargoes imposed by other nations.
    Intelligence indicates that terrorists have discussed 
vulnerabilities in various components of the sector. Food and 
agriculture is an attractive target to terrorists because many agents 
are easy to obtain, minimal technology is required to execute an 
attack, and our food travels across the country and world quickly and 
efficiently.
    Furthermore, even if there are few human casualties, an 
agroterrorism attack would also undermine public confidence in 
Government, increasing general concerns about the safety of our food 
supply as well as the effectiveness of biological defense planning. 
This goes to the heart of what we know groups like ISIS are trying to 
do--terrorize by any means possible.
    We need only look at the impacts of highly pathogenic avian 
influenza (HPAI), a natural event, to see how devastating an 
intentional act against our food or agriculture could be. Last year's 
outbreak of HPAI was the largest animal health incident in U.S. 
history, resulting in over $3 billion in economic losses and the 
slaughtering of 48 million birds to stem the spread of disease. 
Eighteen trading partners banned all imports of U.S. poultry and 
products and an additional 28 trading partners imposed partial bans.
    This outbreak and its rapid farm-to-farm spread highlighted the 
challenges the sector faces related to effective biosecurity, 
especially during a large-scale response.
    We must ensure we are able to assess our level of preparedness for 
any type of major disruption to U.S. food or agriculture. Our goal 
today is to gain a better understanding of what Government, along with 
academia and the private sector, are doing to reduce vulnerabilities of 
the food and agricultural sector to a terrorist attack.
    We hope to gain a better understanding of the scope of the problem, 
and identify ways in which we as Members of Congress focused on 
homeland security issues can help prevent attacks and improve our 
readiness and ability to respond.
    I hope to hear about information sharing with Government. Is food 
and agriculture engaged in our processes including fusion centers? Are 
you getting the threat and risk information you need? I also want to 
understand your connectedness to the human health side of things--are 
our current biosurveillance systems integrating the human, animal, and 
plant data to form a true ``One Health'' picture?
    With that, I welcome our witnesses. I look forward to your 
testimony.

    Ms. McSally. The Chair now recognizes the gentleman from 
New Jersey, Mr. Payne, for any opening statement he may have.
    Mr. Payne. Thank you, Madam Chair. Good morning to all 
here. I would like to thank subcommittee Chair, Ms. McSally, 
for holding today's chair. Madam Chair, I wish you the best of 
luck as you take over the Subcommittee on Border and Maritime 
Security.
    Ms. McSally. Thank you.
    Mr. Payne. Biological threats are evolving. As these 
threats evolve, so does our perspective about how we can best 
protect against the damage that they can inflict. This 
subcommittee has historically focused on the human health 
impact of the biological threats. I am pleased that we are 
expanding the scope of our oversight to include the impact to 
U.S. agriculture and food supply.
    I represent the 10th Congressional District of the State of 
New Jersey. Now, my district is not known for its rolling 
fields of corn, hog pens or open cattle ranges. It is, however, 
home of the Port of Newark, and Newark Liberty International 
Airport. Customs and Border Protection agriculture specialists 
at the airport clear up to 20,000 passengers every day. At Port 
Newark, one of the busiest ports on the East Coast, specialists 
inspect imported food, items, marble slabs, tiles, and wood-
packing material, all of which can carry insects and other 
snails that could harm our domestic agriculture. Yet, just this 
week, I heard the CPB employees in my district about 
insufficient agriculture specialist staffing.
    The Port of Newark and Newark International Airport are top 
performing ports, with top interception numbers and several 
first-in-the-Nation insect finds. But I am concerned that 
unless the staffing challenges are resolved, there is a risk 
that a new foreign insect could go undetected and do harm to 
the agriculture industry and the safety of the food supply.
    Although I recognize that we may not be able to stop every 
dangerous insect or pathogen from entering our borders, we must 
be vigilant. With that said, I also recognize that there are 
domestic risks to agriculture--the agriculture industry and the 
food supply related to natural disasters and emerging disease, 
diseasing and bad actors.
    Last year, for example, an avian influenza outbreak was 
responsible for nearly $400 million in losses to the egg and 
poultry industry, and consumers paid the price at the grocery 
store. Although the Avian influenza was a naturally-occurring 
event, the financial losses sustained served as a sobering 
example of the economic damage that a significant agriculture 
incident could inflict.
    The food and agricultural industry is valued at nearly $1 
trillion in the United States, and its criticality to the 
American people is without question. That is why the Federal 
Government has designated the food and agriculture sector a 
critical infrastructure sector since 2003.
    Although there are multiple efforts to enhance the security 
of the agriculture industry underway at the Federal and State 
level, as well as within industry, significant challenges 
remain. For example, earlier this month, this subcommittee held 
a hearing on the Department of Homeland Security's struggle to 
achieve a National biosurveillance capability to collect and 
analyze biosurveillance data related to human health, animal 
health, and plant health.
    Unfortunately, this DHS National Biosurveillance 
Integration Center has struggled to effectively execute its 
mission for nearly a decade to the detriment of efforts to 
improve the agricultural biosurveillance capabilities. I will 
be interested to know what, if any, recommendations the 
witnesses have to improve the National biosurveillance 
capability in that regard.
    Additionally, I will be interested in understanding how 
information related to emerging diseases, emergency planning 
for natural disasters, and terrorist threats is shared with 
stakeholders in the agricultural industry, and whether the 
information is actionable.
    Finally, I am eager to learn from our witnesses how the 
private sector, educational institutions, and non-Government 
entities can play an active role in developing and enhancing 
biosecurity protocols for the agriculture industry as a whole.
    I thank the witnesses for being here today, and I look 
forward to hearing your testimony. Madam Chair, with that, I 
yield back the balance of my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne Jr.
                           February 26, 2016
    Biological threats are evolving. As these threats evolve, so does 
our perspective about how we can best protect against the damage they 
can inflict. This subcommittee has historically focused on the human 
health impact of the biological threats. I am pleased that we are 
expanding the scope of our oversight to include the impact to U.S. 
agriculture and food supply.
    I represent the 10th Congressional district of New Jersey. My 
district is not known for its rolling fields of corn, hog pens, or open 
cattle ranges. It is, however, home of the Port of Newark and Newark 
Liberty International Airport.
    Customs and Border Protection Agriculture Specialists at that 
airport clear up to 20,000 passengers every day. At Port Newark--one of 
the busiest ports on the East Coast--specialists inspect imported food 
items, marble slabs, tiles, and wood-packing material, all of which can 
carry insects or other snails that could harm domestic agriculture.
    Yet, just this week, I heard from CBP employees in my district 
about insufficient Agriculture Specialist staffing. The Port of Newark 
and Newark Liberty International Airport are top performing ports, with 
top interception numbers, and several ``First-in-Nation'' insect finds.
    But I am concerned that unless the staffing challenges are 
resolved, there's a risk that a new foreign insect could go undetected 
and do harm to the agriculture industry and the safety of the food 
supply. Although I recognize that we may not be able to stop every 
dangerous insect or pathogen from entering our borders, we must be 
vigilant.
    With that said, I also recognize that there are domestic risks to 
the agriculture industry and food supply--related to natural disasters, 
emerging disease, and bad actors. Last year, for example, an avian 
influenza outbreak was responsible for nearly $400 million in losses to 
the egg and poultry industry.
    And consumers paid the price at the grocery store. Although avian 
influenza was a naturally-occurring event, the financial losses 
sustained served as a sobering example of the economic damage that a 
significant agricultural incident could inflict.
    The food and agriculture industry is valued at nearly a trillion 
dollars in the United States, and its criticality to the American 
people is without question. That is why the Federal Government has 
designated the Food and Agriculture Sector a critical infrastructure 
sector since 2003. Although there are multiple efforts to enhance the 
security of the agriculture industry underway at the Federal and State 
level, as well as within industry, significant challenges remain.
    For example, earlier this month, this subcommittee held a hearing 
on the Department of Homeland Security's struggle to achieve a National 
biosurveillance capability to collect and analyze biosurveillance data 
related to human health, animal health, and plant health. 
Unfortunately, this DHS's National Biosurveillance Integration Center 
has struggled to effectively execute its mission for nearly a decade, 
to the detriment of efforts to improve agriculture biosurveillance 
capabilities. I will be interested to know what, if any, 
recommendations the witnesses have to improve the National 
biosurveillance capability in that regard.
    Additionally, I will be interested in understanding how information 
related to emerging diseases, emergency planning for natural disasters, 
and terrorist threats is shared with stakeholders in the agriculture 
industry and whether the information is actionable.
    Finally, I am eager to learn from our witnesses how the private 
sector, educational institutions, and other non-Government entities can 
play an active role in developing and enhancing biosecurity protocols 
for the agriculture industry as a whole.

    Ms. McSally. Thank you, Ranking Member Payne. Other Members 
of the subcommittee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 26, 2016
    Before we begin, I would like to thank all of the witnesses for 
being here today, especially Professor Brian Williams from Mississippi 
State University. Mr. Williams is a professor at Mississippi State's 
College of Agriculture Economics and will provide important insight 
into the economic effects of an agro-event--whether man-made or 
naturally-occurring. I would like to thank him for making the trip to 
Washington to share his important insights with us today. I represent a 
district in Mississippi where agriculture is the No. 1 source of 
income.
    From catfish and poultry to hogs and rice, agriculture accounts for 
$10.6 billion in annual revenue--or over 15 percent--of the State's 
income. Any significant disruption to the agriculture industry there--
whether at the hands of terrorist actors, emerging diseases, or natural 
disasters--would have devastating rippling effects throughout the State 
and the Nation. That is why I have worked hard to advance programs that 
improve the National capability to prevent--and mitigate the impact 
of--biological events affecting agriculture and improve resiliency 
within the industry.
    I am interested in hearing our witness' assessment of Federal 
efforts to protect the Nation's food supply and to better understand 
the risks to our agriculture sector. Late last year, the Blue Ribbon 
Study Panel on Biodefense released a report that identified capability 
gaps across the National biodefense enterprise. The Panel's report 
focused on biodefense efforts associated with protecting human health. 
It also addressed bio-threats to agriculture.
    An important recommendation from the report called for enhanced 
surveillance and detection of biological threats to animal health. This 
would be achieved through the establishment of a ``Nationally 
notifiable animal disease system'' modeled after the existing system 
for identifying human disease outbreaks.
    Too often, we find that information sharing does not take place 
across units of Government and the private sector. Hopefully, our 
witnesses can shed light on whether the Federal Government is doing 
enough to identify international threats to the agriculture industry. I 
believe these actions must be timely and fact-based to protect domestic 
livestock and crops. Domestically, we should examine whether animal 
disease reporting requirements ensure that emerging diseases are 
identified. That information is central to the ability of health and 
safety officials to contain an outbreak.
    The U.S. Department of Agriculture has proposed the creation of a 
National List of Reportable Animal Diseases. I would be interested to 
hear whether the existence of such a list would be helpful to 
agricultural stakeholders and whether it could be designed in a way 
where States and other owners of disease information could willingly 
and comfortably report disease incidence?
    Moreover, I want to understand the extent to which the agriculture 
industry has been included in emergency planning activities so that it 
is resilient in the wake of a natural disaster. Now that NBAF has 
received its construction funding, I want to learn about the research 
that will be conducted on biological threats to livestock and animal 
diseases that can impact human health. To that end, I would like to 
learn more about Kansas State's partnership with NBAF, the research 
that will be pursued, and how its work will advance National agro-
defense capabilities.

    Ms. McSally. We are pleased to have a very distinguished 
panel before us today on this important topic. Dr. Doug Meckes 
is the North Carolina State veterinarian, a position he has 
held since 2014. Prior to that, Dr. Meckes served as the branch 
chief for Food, Agriculture, and Veterinary Defense at the U.S. 
Department of Homeland Security, where he provided oversight 
and management of the Department's implementation of Homeland 
Security Presidential Directive-9, Defense of the United States 
Agriculture and Food, Integrating the efforts of other DHS 
components, and coordinating those efforts with appropriate 
Federal departments and agencies, Tribal, State, and local 
governments, and the private sector.
    Dr. Tammy Beckham is dean of the College of Veterinary 
Medicine at Kansas State University, a position she assumed in 
August 2015. Prior to her current position, Dr. Beckham served 
as the director of the Institute for Infectious Animal 
Diseases, or IIAD, a Department of Homeland Security Center of 
Excellence in College Station, Texas, where she led the IIAD's 
effort to perform research and develop products to defend the 
Nation from high consequence, foreign, animal, emerging, and 
zoonotic diseases. Did I say that right?
    Dr. Beckham. Excellent.
    Ms. McSally. I was a premed biology major in college. My 
professors would not be proud of me.
    Anyway, Dr. Beckham also served as director of the Texas 
A&M Veterinary Medical Diagnostic laboratory, where she 
provided leadership for its two full-service laboratories and 
two poultry laboratories, and directs one of the highest-volume 
animal diagnostic labs in the country.
    Previously, Dr. Beckham was director of the Foreign Animal 
Disease Diagnostic laboratory, part of the U.S. Department of 
Agriculture's Plum Island Animal Disease Center in New York. 
Her responsibilities included managing the diagnosis of animal 
diseases; overseeing diagnostic test development for a Nation-
wide animal health diagnostic system; and coordinating efforts 
with the Department of Homeland Security and National Animal 
Health Laboratory Network and other entities.
    Mr. Bobby Acord has been a consultant for the National Pork 
Producers Council since 2004. Prior to that, Mr. Acord served 
as administrator for the U.S. Department of Agriculture's 
Animal and Plant Health Inspection Services from 2001 to 2004. 
As APHIS's--is that how you pronounce it--administrator, Mr. 
Acord was responsible for protecting U.S. agricultural health 
from exotic pests and diseases, administering the Animal 
Welfare Act, and carrying out wildlife damage management 
activities. Mr. Acord served as APHIS's associate administrator 
from 1999 to 2001. Prior to that, he served nearly a decade as 
deputy administrator for APHIS's wildlife services program.
    Dr. Brian Williams is an assistant extension professor at 
the Mississippi State University, Department of Agricultural 
Economics. Dr. Williams focuses on the primary areas of 
commodity marketing, farm management, production economics, and 
agricultural policy. Since joining the department, he has 
served as a member of the Mississippi University disaster 
response team, where he has focused on assessing damage to the 
agricultural academic sector after natural disasters. The 
witnesses' full written statements will appear in the record.
    The Chair now recognizes Dr. Meckes for 5 minutes.

  STATEMENT OF R. DOUGLAS MECKES, D.V.M., STATE VETERINARIAN, 
NORTH CAROLINA DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES, 
                      VETERINARY DIVISION

    Dr. Meckes. Red light. Chairman McSally, Ranking Member 
Payne, Members of the House Subcommittee on Preparedness, 
Response, and Communications. My name is Doug Meckes, and I am 
the State veterinarian and the director of the veterinary 
division in North Carolina's Department of Agriculture and 
consumer services. The division serves the poultry industry, 
the livestock industry, and manages and operates 4 veterinary 
diagnostic laboratories in North Carolina.
    Thank you for the opportunity to speak today about North 
Carolina's on-going efforts to prepare for, respond to, and 
communicate with stakeholders during agricultural emergencies.
    North Carolina and Georgia's robust agriculture and 
agribusiness industry, which contributes nearly $80 billion 
annually to North Carolina's economy. Sixty-seven percent of 
that figure is associated animal agriculture. The industry 
accounts for 17 percent of State's income and employs 16 
percent of the workforce.
    Chairman McSally and Ranking Member Payne have spoken 
knowledgeably about the food and ag sectors writ large, and I 
will not speak to that. But mindful of the contributions of the 
food and ag sector to the Nation, in January 2004, Homeland 
Security Presidential Directive-9 was released and established 
a National policy to defend agriculture food and food systems 
against terrorist attacks, major disasters, and other 
emergencies.
    Included in HSPD-9 were 18 line items which provide 
guidance to address then-identified gaps in our Nation's 
ability to identify agriculture and food. Twelve years, later, 
gaps remain in our efforts to fulfill the HSPD-9 directives.
    I will speak to North Carolina's concerns over 3 of those 
gaps today. Federal, State, and local responses capabilities, 
availability of vaccine for foot-and-mouth disease, and the 
National Animal Health Laboratory Network resources. Line item 
14 of HSPD-9 directs participating departments and agencies to 
ensure that the Federal, State, and local response capabilities 
are adequate to respond effectively to a terrorist attack, to 
major disease outbreaks, or other disaster.
    Even before HSPD-9, my predecessors in North Carolina 
recognized the need for such capability. That need was 
precipitated by a series of events in the State, in the Nation, 
and internationally. In September 1999, Hurricane Floyd made 
landfall in North Carolina, and that resulted in $813 million 
in agriculture losses.
    In February 2001, an outbreak of foot-and-mouth disease in 
the United Kingdom caused a crisis in agriculture and tourism.
    Finally, 9/11 brought new concerns of attacks on our 
agriculture and food systems. The likelihood of agroterrorism, 
the deliberate introduction of animal plant disease for the 
purpose of generating fear, and causing economic losses, and 
undermining social stability took on new meaning.
    In the midst of these events, North Carolina's veterinary 
division launched an effort to meet the challenges of 
agriculture and food in the 21st Century. As a result, the 
emergency programs division was created within the department 
to reduce the vulnerability, minimize the impact of any natural 
or man-made disaster, disease, or terrorist attack, and to 
facilitate a rapid return to normalcy.
    Today, the emergency programs division within North 
Carolina has reached maturity and has more than fulfilled its 
all hazards response mission. Development of this capability 
has been funded by State and various Federal grants: $18 
million in State funds, $7.3 million in Federal funds, a 
relatively small investment over the years.
    Consider what similar investments might have meant to 
States so profoundly affected by HPAI. Iowa and Minnesota 
experienced $1.6-1.8 billion in economic losses as a result of 
HPAI on 180 premises.
    Continued Federal, State funding will be necessary to 
maintain current capability to develop new capability to train, 
to exercise, to replace equipment as needed. Unfortunately, 
funding for North Carolina's emergency program division 
continues to decline, and places the State's preparedness and 
response capability at risk.
    North Carolina's second concern, line item 18(a) of HSPD-9, 
speaks to the necessity of developing a National Veterinary 
Stockpile, containing sufficient amounts of animal vaccine 
antivirals, therapeutic products to appropriately respond to 
the most damaging animal diseases.
    Foremost in the minds with States with significant animal 
agriculture production is the possibility of a foot-and-mouth 
disease outbreak. Certainly, that is the case in North 
Carolina, home to 9 million hogs. The size, the structure, the 
efficiency, and the extensive movement inherent in U.S. 
livestock industry, will present unprecedented challenges in 
the event of an FMD outbreak. Control of such an outbreak in 
livestock-dense areas will require tens of millions of doses of 
foot-and-mouth disease vaccine.
    However, there are not tens of millions of doses of foot-
and-mouth disease available, not anywhere in the world, because 
there is no excess production capacity. Current production 
meets daily needs, and there is no excess capacity. The reality 
has been evident since 2004, when the National Veterinary 
Stockpile was created, but there has never been sufficient 
funding to stockpile foot-and-mouth disease vaccines.
    FMD remains North Carolina's animal agriculture's greatest 
threat. The pork industry, the economy, communities, 
businesses, and families in North Carolina would be devastated 
by a foot-and-mouth disease outbreak. A cooperative 
collaborative effort, which includes all stakeholders must be 
initiated to develop and implement a plan for establishing an 
effective FMD stockpile.
    North Carolina's third concern is veterinary diagnostic 
laboratory capability. Line item 8, HSPD-9, directs departments 
and agencies to develop a Nation-wide laboratory network for 
food, veterinary, plant, health, and water resources that 
integrate Federal and State laboratory resources. The National 
Animal Health Laboratory Network was created as a result of 
this directive, and is now a part of the Nation-wide strategy 
to coordinate the work of all organizations providing animal 
disease surveillance and testing services.
    North Carolina's veterinary diagnostic laboratory system is 
a part of NAHLN, effectively surveils for and diagnoses 
animals' zoonotic diseases every day. However, State and 
Federal support of and full funding for the Nation's NAHLN 
laboratory system are necessary to optimize capability.
    The absence of full funding for the NAHLN was recently 
noted in the bipartisan report of the Blue Ribbon Study Panel 
on Biodefense, which stated: ``The NAHLN has struggled to 
maintain even $10 million of annual funding. Its appropriations 
cut over the years to pay for other programs. As a result, 
laboratories are unable to meet the threat and at times 
eliminate positions and testing capacity for foreign animal 
diseases.''
    After struggling for years to obtain sufficient funding, 
Congress, in 2014, authorized the specific funding line for 
NAHLN at $15 million. NAHLN must be funded at this authorized 
level in order to meet the need.
    Thank you for the opportunity to speak today on behalf of 
North Carolina, about issues of concern related to the defense 
in food and agriculture. I am happy to address any questions 
you may have.
    [The prepared statement of Dr. Meckes follows:]
                Prepared Statement of R. Douglas Meckes
                           February 26, 2016
    Chairman Donovan, Ranking Member Payne, and Members of the House 
Subcommittee on Preparedness, Response, and Communications, my name is 
Doug Meckes and I am the State veterinarian and the director of the 
Veterinary Division in North Carolina's Department of Agriculture and 
Consumer Services. The division includes 150 employees that serve the 
poultry industry and the livestock industry, that manage and operate 
the State's 4 veterinary diagnostic laboratories, and that are charged 
with oversight of 866 kennels and shelters caring for companion animals 
in North Carolina. Thank you for the opportunity to speak about matters 
of concern in North Carolina's on-going efforts to prepare for, respond 
to, and communicate with stakeholders during agricultural emergencies.
    North Carolina enjoys a robust agriculture and agribusiness 
industry which contributes nearly $80 billion on an annual basis to 
North Carolina's economy; 66% of that figure is associated with animal 
agriculture and North Carolina ranks second in hog production and third 
in overall poultry production in the Nation. On an annual basis, the 
industry accounts for 17% of the State's income and employs 16% of the 
workforce. North Carolina's agriculture/agribusiness industry is part 
of the greater Food and Agriculture Sector (FA Sector), designated by 
Homeland Security a critical infrastructure sector in 2003 thus 
recognizing its significant contribution to National security and the 
economy.\1\
---------------------------------------------------------------------------
    \1\ Mike Walden, Reynolds Professor and Extension Economist, NC 
State University's College of Agriculture and Life Sciences.
---------------------------------------------------------------------------
    The FA Sector is composed of complex production, processing, and 
delivery systems and has the capacity to feed people and animals both 
within and beyond the boundaries of the United States. These food and 
agriculture systems are almost entirely under private ownership, 
operate in highly competitive global markets, strive to operate in 
harmony with the environment, and provide economic opportunities and an 
improved quality of life for American citizens and others world-wide. 
The FA Sector accounts for roughly one-fifth of the Nation's economic 
activity. In 2012, total agricultural product sales amounted to $400 
billion, with crops and livestock each accounting for roughly half of 
those sales. One-fifth of U.S. agricultural production is exported, 
generating $144.1 billion in 2013, creating a positive trade balance of 
roughly $40 billion, and thereby fueling the U.S. economy.\2\
---------------------------------------------------------------------------
    \2\ Food and Agriculture Sector-Specific Plan (SSP) 2015.
---------------------------------------------------------------------------
    In January 2004, Homeland Security Presidential Directive-9 (HSPD-
9) ``established a National policy to defend the agriculture system 
against terrorists' attack, major disasters, and other emergencies.'' 
Included in HSPD-9 were 18 ``line items'' which provide guidance to 
address then-identified gaps in the Nation's ability to defend 
agriculture and food. Twelve years later, progress has been made in 
addressing some of the gaps including a star in the crown of 
agriculture and food defense: Line Item 24 in HSPD-9--the design and 
initiation of construction for ``safe, secure, and state-of-the-art 
agriculture biocontainment laboratories that research and develop 
diagnostic capabilities for foreign animal and zoonotic diseases,'' the 
National Agro-Biodefense facility in Manhattan, Kansas. This 
achievement notwithstanding, other gaps in HSPD-9 have not been 
sufficiently addressed.
    In the interest of full disclosure, prior to accepting my position 
in North Carolina, I was fully engaged in ``providing oversight and 
management of the Department's (DHS's) implementation of HSPD-9'' in my 
role as branch chief, Food, Agriculture and Veterinary Defense Branch 
of the Office of Health Affairs, Department of Homeland Security. Thus, 
through my experiences with DHS and now as State veterinarian, I have 
gained unique insight into what is/should be required at the State 
level to defend agriculture and food. I will speak to 3 of North 
Carolina's concerns today: Federal, State, and local response 
capabilities, availability of vaccine for Foot-and-Mouth disease, and 
National Animal Health Laboratory Network resources.
    Line Item 14 of HSPD-9 directs the participating Departments/
Agencies to ensure ``that the combined Federal, State, and local 
response capabilities are adequate to respond quickly and effectively 
to a terrorist attack, major disease outbreak, or other disaster 
affecting the National agriculture or food infrastructure.'' Even 
before HSPD-9, members of the North Carolina Department of Agriculture 
and Consumer Services (NCDA&CS), my predecessors, recognized the need 
for such a capability. Today, as the North Carolina State Veterinarian, 
I am the fortunate benefactor of their insight, vision, and planning to 
prepare for and respond to agriculture and food incidents of any 
magnitude. The need for this capability was precipitated by a series of 
events in the State, in the Nation, and internationally. In September 
1999, Hurricane Floyd made landfall in North Carolina. The hurricane, 
and associated weather conditions before and after, resulted in the 
most severe flooding and devastation in North Carolina's history. That 
flooding resulted in an estimated $813 million in agricultural losses 
affecting 32,000 farmers. In addition to crop losses, livestock 
losses--almost 3 million poultry, 28,000 swine, and 600 hundred 
cattle--created problems associated with disposal of the carcasses of 
the animals.\3\ In February 2001, an outbreak of foot-and-mouth disease 
in the United Kingdom caused a crisis in British agriculture and 
tourism. This epizootic saw 2,000 cases of the disease in farms across 
most of the British countryside. Over 10 million sheep and cattle were 
depopulated in an eventually successful attempt to halt the disease. By 
the time that the disease was controlled, in October 2001, the crisis 
was estimated to have cost the United Kingdom over US$6 billion. 
Finally, the attacks of 9/11 and the subsequent 2001 anthrax attacks, 
also known as Amerithrax, brought new concerns of attacks on our 
agricultural and food systems. The likelihood of ``agroterrorism,'' 
``the deliberate introduction of an animal or plant disease for the 
purpose of generating fear, causing economic losses, or undermining 
social stability,'' took on new meaning.
---------------------------------------------------------------------------
    \3\ North Carolina State Animal Response Team (SART) Animal Burial 
Guidelines 2003.
---------------------------------------------------------------------------
    In the midst of these events, the director of the Veterinary 
Division in NCDA&CS took on the task of developing capabilities to 
better protect North Carolina's animal health and to formulate a plan 
to meet the challenges of agriculture and food in the 21st Century. The 
sum of the director's efforts in this regard created the Emergency 
Programs Division within the Department. The mission of the Division is 
to: ``Reduce the vulnerability and minimize the impact from any natural 
or man-made disaster, disease outbreak, or terrorist attack for the 
Department, the people and the agricultural interest of the State and 
to facilitate a rapid return to normalcy.'' Obviously, given the 
possible origins of a disaster, a broad spectrum of multi-hazard events 
must be considered.
    In 2002, the Agricultural Emergency Operations Center (AgEOC) was 
completed and 4 primary activities were identified:
    1. Continuation of the threat assessment and threat reduction 
        efforts within the Department and the agriculture community.
    2. Training of AgEOC staff in operations and conduct of exercises 
        for Multi-Hazard events.
    3. Completion of the Multi-Hazard Response Plan.
    4. Securing adequate funding for the continued development of the 
        Multi-Hazard Threat Database (MHTD), and full implementation of 
        the NC Threat Reduction Plan.
    The MHTD built by and for the use of the NCDA&CS, is a collection 
of both secure and public facing web-based applications. It provides 
detailed situational awareness in all events; examples would include: 
Flooding and wind projections during hurricanes for the FA Sector; 
visualization of disease spread; premises and facility locations for 
isolation/quarantine within a control area; vehicle routing during 
disease outbreaks; and food and feed firm's activities during recalls/
food illness outbreaks. Additionally, the MHTD facilitates and supports 
all activities associated with strategic planning, emergency response, 
incident command structure, and resource management during events. 
NCDA&CS is currently in the process of developing a 5-year plan to 
retool and bolster the effectiveness and complete integration of MHTD 
into the North Carolina FA Sector; the end-product of this effort--a 
MHTD tool capable of successfully guiding North Carolina through any 
all-hazards event and returning/restoring the economy, the environment, 
and the citizens to pre-event status.
    Today, the Emergency Programs Division (EP Division) has reached 
maturity and its sphere of operation is considered All-Hazards in 
nature; as such, the EP Division is actively engaged in the support of 
other divisions within the Department, collaborates and coordinates 
with other departments and agencies across local, State, and Federal 
government, with industry and academia, and has rendered assistance to 
other States in a variety of instances. The EP Division's mission and 
goals are now well-defined.
                                mission
    The NCDA&CS Emergency Programs Division's mission is to reduce the 
vulnerability to or the impact from, any disaster, disease, or 
terrorist attack on the agriculture community of North Carolina. The 
Division serves in a leadership capacity within the Department and 
works closely with local communities to support agrosecurity, 
agricultural emergency preparedness and recovery, and rapid response 
technology efforts. The EP Division establishes public-private 
partnerships between vital government agencies, industry, and 
volunteers to carry out this mission.
                                 goals
  <bullet> Preserve the ability of the N.C. agriculture community to 
        produce stable supplies of food and other agricultural 
        products.
  <bullet> Diagnose and investigate infectious animal and livestock 
        diseases, intentional plant pest introductions, unauthorized 
        biological control agent releases, and environmental health 
        problems and health hazards in the N.C. agriculture community.
  <bullet> Provide the full resources of the North Carolina Department 
        of Agriculture & Consumer Services to support the State of 
        North Carolina in any emergency situation.
  <bullet> Reduce the vulnerability of the staff, vital assets, 
        services, and operations of the North Carolina Department of 
        Agriculture & Consumer Services.
  <bullet> Reduce the vulnerability of State animal, livestock, plant, 
        crop, and other beneficial organism populations from the effect 
        of a Multi-Hazard emergency event.
  <bullet> Support the partners and customers of the North Carolina 
        Department of Agriculture & Consumer Services in reducing their 
        vulnerability to and recovery from the effect of a Multi-Hazard 
        emergency event.
  <bullet> Inform, educate, and empower people to respond to specific 
        agricultural community issues pertaining to a threatened or 
        actual Multi-Hazard emergency event.
  <bullet> Enforce laws and regulations that protect public, animal, 
        livestock, plant, crop, and other beneficial organism's health 
        and ensure their general safety in case of a Multi-Hazard 
        emergency event.
  <bullet> Evaluate the effectiveness, accessibility, and quality of 
        departmental and community-based agricultural services 
        available to respond to a Multi-Hazard emergency event.
    The measure of success of the EP Division's efforts to accomplish 
its All-Hazards Response mission is best characterized by the breadth 
of its activities.
             the castleberry food recall in north carolina
    On July 18, 2007, Castleberry's Food Company announced that it was 
voluntarily recalling several products and working with the U.S. Food 
and Drug Administration (FDA), the United States Department of 
Agriculture (USDA), and the Centers for Disease Control and Prevention 
(CDC) to investigate possible contamination of these products with 
Clostridium Botulinum, a bacterium which can cause botulism, a life-
threatening illness. Upon notification of this recall, NCDA&CS Food and 
Drug Protection Division and Meat and Poultry Inspection Division 
jointly initiated response actions on July 20, 2007 and began to 
monitor the situation. At the time there was little data known about 
the recall. As the seriousness of the situation became clearer through 
communications with FDA, NCDA&CS initiated the formation of the 
Castleberry Recall Incident Management Team (IMT) and activated the 
Joint Food Emergency Operations Command Center. Food and Drug 
Protection Division became the multi-agency coordinator for North 
Carolina food defense agencies and set up the command center at the 
NCDA&CS Constable Laboratory, in Raleigh, NC. The director instituted 
the use of the Incident Command System (ICS) to manage the incident on 
July 25, 2007 and began development of daily Incident Action Plans. The 
initial planning process incorporated the Food and Drug Protection 
Division, Meat and Poultry Inspection Division, Public Affairs 
Division, Agricultural Statistics Division, and EP Division into the 
event operations.
    The early implementation of the ICS by the NCDA&CS and other State 
agencies to manage the event was seen by all responding agencies as one 
of the keys to the overall success of the operation. The activation of 
the Joint Food Emergency Operations Command Center allowed the various 
State and local agencies with response authority and capability to act 
in a uniform and consistent manner, which contributed to the success 
and positive mission outcomes of the operation. At the end of the 
recall, over 35,000 cans of product were removed from outlets across 
North Carolina, more that the total of all products collected by the 
rest of the United States agencies engaged in the recall.
                            evans road fire
    In June of 2008 a wildfire broke out in Eastern North Carolina 
consuming over 40,000 acres. Utilizing the web-based Emergency 
Operations Center (WebEOC), EP Division coordinated the NCDA&CS 
response and support activities for this event. Logistical support was 
provided in the form of a loan of 320 gallons of fire suppression foam 
from EP Division's Avian Influenza (AI) response inventory, pumps, and 
hoses. The Department also provided 2 trucks for dust abatement as well 
as personnel from Plant Industries Division. Food distribution was also 
supplied in the form of 2 refrigerated trailers to support food service 
for the fire fighters.
               tomato and pepper salmonella investigation
    The NCDA&CS Emergency Program Division assisted the Food and Drug 
Protection Division in its response to a National Salmonella outbreak 
in various fresh produce products in the late summer 2008. Due to the 
complexity of the event and potential serious consequences for 
consumers and producers alike, EP Division assisted in the 
establishment of a Multi-Agency Joint Operation Center at the Food and 
Drug Division's Constable Laboratory. Specifically EP Division: 
Developed and distributed daily Incident Action Plans; refined 
procedures to address personnel, equipment, and safety issues; 
facilitated daily conference calls; gathered, recorded, and 
disseminated event documentation; developed and distributed daily 
situation reports; provided secure web-based data and information-
gathering tools to facilitate situational awareness and operational 
planning processes; implemented a web-based field reporting and time 
and mileage websites; and acted as liaison to involved agency 
administrators and North Carolina Emergency Management.
                operation restore (peanut butter recall)
    In the winter of 2009 the U.S. FDA issued a peanut butter recall 
due to the recent outbreaks of Salmonella linked to peanut paste. The 
North Carolina Food and Drug Protection Division conducted 569 checks 
evaluating over 2,000 products subject to the recall with an 
effectiveness rate in excess of 68%. The EP Division supported the Food 
and Drug Division technologically with the creation of a web-based data 
entry and reporting tools. These tools allowed inspectors in the field 
to rapidly upload critical time-sensitive data which assisted decision 
makers, allowing them to make informed choices quickly. Additionally, 
websites were also developed for workers involved in the recall to 
record time and mileage, allowing rapid accounting for reimbursement, 
and an ``after-action'' website to gather feedback from participants.
emergency management assistance compact (emac) requested by the alabama 
   department of agriculture and industry to assist damaged producer 
                               facilities
    A poultry depopulation task force consisting of 6 NCDA&CS 
personnel, resources including 2 foam depopulation units, supplies, and 
materials deployed to Alabama on May 1, 2011. The focus of this event 
was response to tornado-damaged poultry producer houses. The task force 
traveled to Decatur, Alabama and reported to its assigned point of 
contact. Team A encountered water delivery issues which limited 
operations to 1 location for the day. This team was operating in 
concert with a team deployed by others. Two and one-half houses in 
partial collapse with approximately 24,000 birds were depopulated on 
this site. Team B was better supplied with water and was able to 
perform operations on 2 different farms. Two houses in partial collapse 
on 2 sites with approximately 24,000 birds were depopulated. Operations 
in both cases resulted in 100% depopulation of houses with no injury to 
personnel or damage to the equipment.
    On day 3 (5/3/2011) the task force was re-assigned to the Alabama 
Department of Agriculture and Industry. Both teams were directed to a 
farm on which 4 houses were in total destruction. One pump unit was 
used to generate foam to depopulate approximately 7,000 birds located 
in 2 of the houses.
     ncda&cs emergency support function 11 hurricane irene response
    Hurricane Irene was a large and powerful Atlantic hurricane that 
left extensive flood and wind damage along its path through the 
Caribbean, the U.S. East Coast and as far north as Atlantic Canada in 
2011.
    In North Carolina, tropical storm force winds began to affect the 
coastal communities and the Outer Banks hours before landfall, 
producing waves of 6-9 feet. In addition to the gales, Irene spawned 
several tornadoes early on August 27 while approaching the coast. 
Precipitation totals from Irene in the region were particularly high, 
ranging between 10-14 inches.
    Prior to landfall and in anticipation of evacuation in select 
counties, NCDA&CS EP Division opened the Agriculture Emergency 
Operations Center and formally established its incident command 
structure on August 25, 2011, which mirrored the N.C. Emergency 
Management's activation level. An initial Incident Action Plan was 
produced and distributed for the operational period beginning at 0700 
hrs August 26, 2011 by the NC Agriculture Incident Management Team with 
the pre-landfall focus of actions centered on public information to 
protect agricultural infrastructure and farms, the safety of NCDA&CS 
staff and facilities, operational support of sheltering for animals, 
and planning of proactive coordination of response actions following 
landfall.
    It's important to note that in April 2011, N.C. Agriculture had 
another brutal assault by tornadoes that ripped through highly-
productive crop land which was just being planted. Agricultural 
structures and equipment were damaged.
    These two events in 2011 resulted in estimated damages of over $450 
million to crops and infrastructure; much of which was either not 
insured at all, or underinsured.
        2014 ncda&cs emergency programs division accomplishments
  <bullet> Internal focus on how to be better prepared as a division to 
        work across lines with sister divisions and across State 
        borders with other agencies to improve capacity in the event of 
        natural or radiological disasters or a food illness outbreak.
  <bullet> Internally, the division identified an Incident Management 
        Team and invited the Food and Drug Protection Division to join 
        in team training specifically to build capability for managing 
        a large event affecting the food supply.
  <bullet> North Carolina hosted a training with the USDA APHIS 
        National Veterinary Stockpile team to improve collaboration 
        during disease outbreaks.
  <bullet> Early in the summer, with news of the West African Ebola 
        Virus (EVD) outbreak and the consequences of managing companion 
        animals of infected individuals coming to North Carolina, EP 
        division began internal discussions while working closely with 
        N.C. Division of Public Health on a strategy for responding to 
        a mission of this type. Through a formal agreement with N.C. 
        Department of Public Health, the EP division is the lead for 
        companion animal care for animals whose owners are exposed to 
        EVD.
  <bullet> EP division worked collaboratively with the National 
        Alliance for State Animal and Agricultural Emergency Programs 
        (NASAAEP) and the National Animal Rescue and Sheltering 
        Coalition to host their annual meeting and to co-join venues 
        with the 11th Annual One Medicine Symposium.
  <bullet> EP division staff inspected animal contact exhibits at 
        sanctioned agricultural fairs for compliance with Aedin's 
        Law,\4\ while also continuing their educational efforts with 
        fair managers and exhibitors regarding non-contact animal 
        exhibits.
---------------------------------------------------------------------------
    \4\ After a 2004 outbreak of E. Coli affected 27 people at the 
North Carolina State Fair, North Carolina legislators passed Aedin's 
Law, which placed new regulations on petting zoos and animal contact 
exhibits at agricultural fairs.
---------------------------------------------------------------------------
        2015 ncda&cs emergency programs division accomplishments
  <bullet> Chief among the 2015 accomplishments are the multiple 
        deployments of depopulation task forces to Minnesota and Iowa 
        to assist in the depopulation of poultry infected with Highly 
        Pathogenic Avian Influenza (HPAI). Early in the outbreak of 
        HPAI (March, April, and May 2015), both States found themselves 
        in desperate straits as the disease spread rapidly throughout 
        their States; North Carolina's assistance was sought and 
        provided and the State's task forces were able to provide 
        capable assistance to aid in the depopulation of infected 
        poultry/infected premise poultry enabling the spread of the 
        disease to be controlled.
  <bullet> In offering his thanks to North Carolina, the Minnesota 
        Incident Commander stated with certainty that North Carolina's 
        assistance had ``saved the poultry industry in Minnesota.''
    In reference to North Carolina's second concern, Line Item 18(a) of 
HSPD-9 speaks to the necessity of developing ``A National Veterinary 
Stockpile (NVS) containing sufficient amounts of animal vaccine, 
antiviral, or therapeutic products to appropriately respond to the most 
damaging animal diseases affecting human health and the economy and 
that will be capable of deployment within 24 hours of an outbreak. The 
NVS shall leverage where appropriate the mechanisms and infrastructure 
that have been developed for the management, storage, and distribution 
of the Strategic National Stockpile.''
    Foremost in the minds of States in which animal agriculture 
production is of significant consequence is the possibility of a Foot-
and-Mouth Disease (FMD) outbreak. That is certainly the case in North 
Carolina, home to 9 million hogs.

``Foot and mouth disease is the most important animal disease in the 
world capable of crossing National boundaries and devastating animal 
agriculture (a transboundary disease). FMD affects cattle, pigs, sheep, 
goats, deer, elk, and other wildlife. Ninety-six countries are either 
endemically or sporadically infected with the disease, therefore there 
is a constant threat that it will be introduced into the United States 
either accidentally or intentionally. FMD is extremely contagious and 
can spread rapidly with devastating consequences. You probably remember 
the outbreak in the United Kingdom in 2001 which is estimated to have 
cost approximately $6 billion. The number of livestock and the 
agriculture economy is much smaller in the United Kingdom than the 
United States. We learned from their outbreak that we cannot depend on 
stamping out the disease by killing all infected and exposed animals.
``The size, structure, efficiency, and extensive movement inherent in 
the United States livestock industry will present unprecedented 
challenges in the event of an FMD outbreak. No country with a livestock 
industry comparable to that of the United States has had to deal with 
an outbreak of FMD, and the impact would extend far beyond animal 
agriculture.
``Once FMD is detected, an essential tool for control is to stop all 
animal movement in the affected area. Livestock production in the 
United States depends on extensive movement of animals. Approximately 
400,000 cattle and 1 million swine are estimated to be on the road in 
trucks each day, either being delivered to packing plants or to other 
stages of production. Approximately 40 million swine are shipped into a 
new State each year (110,000 each day). Many of those cross multiple 
State lines. In an FMD outbreak, State Animal Health Officials may 
prohibit animals from an FMD positive area from entering their State. 
Modern swine production depends on extensive animal movement on a 
regular basis. If animal movement is stopped, animals will need to be 
euthanized for welfare reasons because facilities will rapidly become 
overcrowded.
``An outbreak of FMD will shut down exports of fresh beef, pork, or 
dairy products. In 2014, beef exports totaled $7.1 billion, pork 
exports $6.7 billion and dairy exports totaled $7.1 billion. 
Approximately 11% of U.S. beef production and 22% of U.S. pork 
production are exported. In 2003, beef exports dropped due to a single 
case of mad cow disease (BSE); the cumulative loss in U.S. beef trade 
is estimated to have been $16 billion. The increasing export of beef 
and pork products in recent years significantly contributes to the 
value of cattle and swine. As exports increase, the industry becomes 
more vulnerable to the sudden and extended loss of exports that would 
result from an FMD outbreak. The price for pork and beef will drop 
dramatically due to the excess product on the domestic market. That 
will also impact the price of poultry products and the price of grain.
``In 2011, Dr. Dermot Hayes and colleagues at the Center for 
Agricultural and Rural Development at Iowa State University published 
``Economy Wide Impacts of a Foreign Animal Disease in the United 
States'' which had been funded by the National Pork Board. They 
estimated that over 10 years, the cumulative loss due to an 
uncontrolled FMD outbreak would be $199.8 billion. Losses estimated 
include: Pork--$57 billion; Beef--$71 billion; Poultry--$1 billion; 
Corn--$44 billion; Soybeans--$25 billion; Wheat--$1.8 billion. The 
impact would likely be larger now because of the increase in the value 
of exports since 2011. Agriculture is a critical infrastructure in the 
United States and is severely threatened by the potential of an FMD 
outbreak.
``The USDA, along with many state and industry officials, recognized 
that the approach of stamping out and stop movement of animals is 
simply not possible given the realities of animal agriculture in the 
United States. The USDA document `Foot-and-Mouth Disease Vaccination 
Policy in the United States' (September 2014) illustrates the current 
capacity of the United States to effectively implement vaccination 
strategy for control of different types of FMD outbreaks (available 
upon request). It clearly indicates that there is not sufficient 
vaccine capacity to assist in controlling an FMD outbreak.
``Fully appreciating the size, structure, efficiency, and extensive 
movement in the United States livestock industry demonstrates the 
unprecedented challenges an FMD outbreak would bring about. Control of 
an FMD outbreak in livestock dense areas without the rapid use of tens 
of millions of doses of FMD vaccine will be impossible.''\5\
---------------------------------------------------------------------------
    \5\ Testimony submitted to the U.S. House of Representatives 
Agriculture Subcommittee on Livestock and Foreign Agriculture: ``Impact 
of an Outbreak of Foot and Mouth Disease (FMD) in the United States and 
the Urgent Need for an Adequate Stockpile of FMD Vaccine.'' Submitted 
by James A. Roth, DVM, PhD, Director of the Center for Food Security 
and Public Health, College of Veterinary Medicine, Iowa State 
University, February 11, 2016.

    That conclusion brings us face-to-face with the dilemma faced by 
our Nation and our Nation's animal agriculture industry--there are not 
tens of millions of doses of FMD vaccine available, not anywhere in the 
world because there is no excess capacity for additional vaccine 
production--current production capacity meets current day-to-day market 
needs for FMD vaccine. This same reality was recognized in 2004 when 
HSPD-9 directed the creation of the National Veterinary Stockpile to 
respond to the most damaging animal diseases (including FMD) affecting 
human health and the economy, but NVS has never received sufficient 
---------------------------------------------------------------------------
funding to stockpile FMD vaccines.

``It is possible to have an FMD vaccine stockpile available for 
immediate use. However, establishing and maintaining an FMD vaccine 
bank is complex. There are 7 distinct serotypes of the virus that are 
not cross-protective and approximately 65 subtypes. The World Reference 
Laboratory for FMD recommends that FMD vaccine banks maintain 23 
strains of FMD virus in the vaccine bank. Once the virus in the 
outbreak is isolated, the serotype can be identified and the correct 
vaccine selected for use.
``A plan to ensure that adequate supplies of FMD vaccine with multiple 
strains of FMD virus are available in the event of an accidental or 
intentional introduction of FMD virus into the United States is 
urgently needed.
``At the request of the National Pork Board, National Cattlemen's Beef 
Association, and National Milk Producers Federation I produced a white 
paper entitled `FMD Vaccine Surge Capacity for Emergency Use in the 
United States' outlining a potential plan to develop a National 
Veterinary Stockpile (NVS) with sufficient quantities of FMD vaccine to 
protect U.S. agriculture, food systems, and the economy. The white 
paper is available at: www.cfsph.iastate.edu/pdf/fmd-vaccine-surge-
capacity-for-emergency-use-in-the-US.''\5\

    Finally, I will address North Carolina's third concern, the issue 
of veterinary diagnostic laboratory capacity in North Carolina and 
across the Nation. Line Item 8 of HSPD-9 states ``the Secretaries of 
the Interior, Agriculture, Health and Human Services, the Administrator 
of the Environmental Protection Agency, and the heads of other 
appropriate Federal departments and agencies shall build upon and 
expand current monitoring and surveillance programs to:

``(c) Develop nation-wide laboratory networks for food, veterinary, 
plant health, and water quality that integrate existing Federal and 
State laboratory resources, are interconnected, and utilize 
standardized diagnostic protocols and procedures.''

    The National Animal Health Laboratory Network (NAHLN) was developed 
as a result of this directive and is now part of a Nation-wide strategy 
to coordinate the work of all organizations providing animal disease 
surveillance and testing services. NAHLN is an early warning system for 
emerging and foreign animal diseases and provides surge capacity for 
the necessary testing during disease outbreaks and during the recovery 
phase. This surveillance and emergency response system provides 
critical and on-going resources for laboratory testing, information 
management, quality assurance and the development and validation of new 
tests. During the recovery phase testing is necessary to establish a 
``disease-free status'' which also ensures international trading 
partners of that status.
    NAHLN's importance was amply demonstrated during the HPAI outbreaks 
where thousands of samples were tested within hours in an effort to 
achieve depopulation of infected flocks within 24 hours. NAHLN 
performed surveillance in surrounding areas to halt disease spread, to 
test premises to determine freedom of disease before repopulation could 
occur, and allow resumption of international trade.
    North Carolina's Rollins Veterinary Diagnostic Laboratory, in 
Raleigh, is one of 12 NAHLN ``core laboratories,'' (so designated 
because it is one of the original 12 participating laboratories). A 
Core Member Laboratory receives significant infrastructure support from 
the U.S. Department of Agriculture (USDA) and conducts fee-for-service 
testing for USDA. Their funding level enables these laboratories to be 
fully committed to the NAHLN mission and able to respond to domestic or 
foreign animal disease emergencies on a 24/7 basis.
    NAHLN support comes from USDA-NIFA Food and Agro-Defense Initiative 
and USDA APHIS. Note: 34 NAHLN labs receive direct State appropriations 
of $100 million toward total National laboratory operation expenses of 
$186 million.
    As stated at the beginning of the discussion regarding ``Efforts to 
Defend the Nation's Agriculture and Food,'' I have spoken to 3 HSPD-9 
``line items'' that are of importance to North Carolina. The first, 
concerned Line Item 14 of HSPD-9 which directs the participating 
Departments/agencies to ensure ``that the combined Federal, State, and 
local response capabilities are adequate to respond quickly and 
effectively . . . ''. I trust this testimony allows you to appreciate 
the wisdom of those in North Carolina who had the foresight to develop 
the capability that has enabled the State to respond to the myriad 
events that have transpired over the intervening years--floods, fires, 
animal disease, human disease, food contamination, drought, and 
hurricanes, our Emergency Programs Division has been on the forefront 
of them all--we have been well-served by their efforts. That said, it 
is also important to note the development of that capability has been 
funded by the State and through various Federal grants--some $7.3 
million in Federal money and $18 million in State money. It is 
appropriate to note that a remarkable capability, and perhaps a unique 
capability relative to other States, has been created for a relatively 
small investment over the years. Consider what similar investments 
might have meant to states so profoundly affected by HPAI--Iowa and 
Minnesota experienced as much as $1.6-1.8 billion in economic losses as 
a result of HPAI on 180 premises. Going forward, continued State and 
Federal funding will be necessary to maintain current capability, 
develop new capability, train, exercise, and replace equipment as 
needed. Unfortunately, funding for North Carolina's Emergency Programs 
Division continues to decline and places the State's preparedness and 
response capability at risk.
    Of greatest concern for North Carolina is the matter of Line Item 
18(a) which speaks to the necessity of developing a National Veterinary 
Stockpile (NVS) containing sufficient amounts of animal vaccine, 
antiviral, or therapeutic products to appropriately respond to the most 
damaging animal diseases--FMD stands alone as North Carolina's greatest 
threat. The pork industry, the economy, communities, businesses, and 
families of North Carolina would be devastated by an FMD outbreak; 
recovery, if a recovery is possible, would be years in the making. A 
cooperative, collaborative effort, which includes all stakeholders--
industry, Federal, State, and academic partners, must be initiated in 
short order to develop and implement a plan for establishing an 
effective FMD vaccine stockpile to protect American agriculture.
    Lastly, Line Item 8 of HSPD-9 directs the responsible departments 
and agencies ``to develop Nation-wide laboratory networks for food, 
veterinary, plant health, and water quality that integrate existing 
Federal and State laboratory resources, are interconnected, and utilize 
standardized diagnostic protocols and procedures.'' North Carolina's 
Veterinary Diagnostic Laboratory System, as a part of the NAHLN, 
effectively surveilles for and diagnoses animal and zoonotic diseases. 
However, State and Federal support of and full funding for the Nation's 
NAHLN laboratory system are necessary to optimize service to 
stakeholders and the Nation. The absence of full funding was recently 
noted in the Bipartisan Report of the Blue Ribbon Study Panel on 
Biodefense. The Report states ``The National Animal Health Laboratory 
Network (NAHLN), an effort to detect biological threats to the Nation's 
food animals, is necessary for effective biosurveillance. The NAHLN is 
a public-private cooperative effort between the USDA, the American 
Association of Veterinary Laboratory Diagnosticians, and publicly-
funded State veterinary diagnostic laboratories. The collective and 
integrated work of its members allows for improved detection of 
emerging and zoonotic diseases, which helps protect animal health, 
public health, and the food supply. The veterinary diagnostic labs that 
are members are quite literally on the front lines of disease 
detection. Established in 2002, the NAHLN is funded through a 
combination of grants, fee-for-testing services, and administrative 
support from USDA. It has struggled to maintain even $10 million worth 
of annual funding, its appropriations cut over the years to pay for 
other programs. As a result, the laboratories are unable to meet the 
threat and have at times eliminated positions and testing capacity for 
foreign animal diseases. Ten million dollars is a very small price to 
pay to protect one of America's major industries and portals for 
disease emergence. After the NAHLN struggled for years to obtain 
sufficient funding, in 2014 Congress authorized a specific funding line 
at $15 million per year. NAHLN must be funded to this authorized level 
in order to meet the need.'' It is important to note that $5 million 
was added to NAHLN's budget in 2016 to aid in the response to HPAI; 
that additional funding was not in the proposed budget for 2017. The 
request for NAHLN in 2017 remains at $10 million.
    Thank you for the opportunity to speak today, on behalf of North 
Carolina, about issues of concern related to the defense of agriculture 
and food. I am happy to address any questions you might have.

    Ms. McSally. Thank you, Dr. Meckes. The Chair now 
recognizes Dr. Beckham for 5 minutes.

STATEMENT OF TAMMY R. BECKHAM, D.V.M., PH.D., DEAN, COLLEGE OF 
          VETERINARY MEDICINE, KANSAS STATE UNIVERSITY

    Dr. Beckham. Good morning, Chairman McSally, Ranking Member 
Payne, and Members of the House Subcommittee on Emergency 
Preparedness, Response, and Communication. My name is Tammy 
Beckham, and I am the dean of the Kansas State College of 
Veterinary Medicine. Thank you for the opportunity to speak to 
you today about the role that academia plays in defending our 
Nation's agriculture and food.
    As I testify before you today, U.S. citizens reap the 
benefits of a robust agricultural industry that provides them 
with access to a safe, abundant, and affordable food supply. 
The very elements that make the U.S. agricultural system robust 
and productive also make it more vulnerable to a natural or 
intentional introduction of a biological agent. In fact, 
perhaps now more than ever in any time in our history, our 
agricultural industries are at risk from a variety of threats 
that have the potential to severely disrupt our economy, our 
food supply, and cause great harm to our public health sector.
    Threats to our U.S. agricultural sector can come in a 
variety of forms to include a natural or intentional 
introduction of a foreign animal emerging and/or a zoonotic 
disease. Many of the agents that are on the list of those most 
likely to be utilized execute an agroterror event, such as 
foot-and-mouth disease, African swine fever or Ebola are 
readily available in countries throughout the world, and, in 
particular, in countries in which terrorist groups, such as the 
Islamic State, al-Qaeda, al-Shabaab, Boko Haram, and others who 
intend to harm the United States, operate.
    Studies indicate the impacts from a natural intentional 
introduction of any of these agents could lead to devastating 
economic and public health implications, with the most recent 
study that was completed by researchers at Kansas State 
University predicting that the cost associated with foot-and-
mouth disease outbreak could result in a total of $188 billion 
in losses.
    Our ability to defend the U.S. livestock industries from 
these threats is heavily dependent on a coordinated, 
collaborative, and comprehensive approach involving State and 
Federal Government, law enforcement industry, both biopharma, 
and livestock, and academia. Since 2002, with the formation of 
DHS and the release of HSPD-9 and HSPD-10, the role of academia 
and supporting the Homeland Security mission has broadened.
    Academia, and, in particular, Land Grand Universities play 
a very unique and critical role in supporting the agricultural 
defense mission. Working with our stakeholders and Federal 
partners, we perform cutting-edge research, we innovate, we 
develop countermeasures, and solutions, and technologies, that 
can support our industry during peace time, as well as during a 
disease outbreak.
    Our ability to work in each segment of the development 
pipeline provides subject-matter expertise, perform research to 
address specific questions, and act as a hub for reach-back 
capabilities are just some of the attributes that make academia 
such a strong and vital partner.
    Through our outreach mission, we work diligently to educate 
producers, stakeholders, and the public about novel 
technologies, policies, biosecurity practices, and threats to 
the sector. We have strong relationships with our stakeholders 
that are built on trust and understanding. Perhaps most 
importantly, to Homeland Security, provide a venue for a 
brokered, unbiased discussion and communication between the 
State and Federal Government and our agriculture sector.
    Academia is in a unique position to facilitate discussions 
between the public and private sector, and oftentimes, works to 
bridge the communication trust gap so that solutions to complex 
challenges can be found. Simply stated, we are capable of 
acting as a trusted partner in what can sometimes be a very 
complex relationship.
    Colleges of veterinary medicine and agriculture across the 
United States are applying what is arguably their most 
important role in Homeland Security, and that is teaching, 
training, and preparing the next generation of Homeland 
Security workforce. Our graduates do, indeed, understand the 
role of animal health and success of an agent's agricultural 
system. Further recognize that veterinarians serve as the first 
line of defense in identifying incursions of transboundary, 
emerging, and zoonotic diseases.
    I would be remiss not to mention that on a site adjacent to 
the Kansas State University College of Veterinary Medicine, DHS 
is currently constructing the National Bio and Agro-Defense 
facility. Needless to say, close collaboration between NBAF and 
the KSU CVM and its allied partners presents an inestimal 
opportunity to further strengthen resources for addressing the 
threats to the U.S. agriculture and food systems.
    There is a need to allocate adequate resources as well to 
address the Nation's vulnerability in this area. Efforts such 
as the DHS Centers of Excellence should receive additional 
resourcing. Additional funds should be provided for agro-
defense-focused research through avenues, such as the USDA 
National Institute for Food and Ag, or NIFA, the National 
Institutes of Health.
    Last, but certainty not least, through increased funding 
for programs that will be housed within the National bio and 
agro-defense facility. Indeed, with construction of a state-of-
the-art $1.25 billion facility, it is critical to ensure a 
stable and appropriate level of resources and funding for the 
research, training, and diagnostic missions that will be housed 
within it.
    Current budgets for the USDA APHIS, ARS, and DHS S&T at 
Plum Island do not account for the planned expansion of the 
programs in research, diagnostic, and training that will occur 
in the new NBAF facility.
    So, I urge you today to increase agency programmatic 
budgets in the future for the NBAF mission so that the full 
potential of the facility and its DHS and USDA programs and 
partnerships to include the National Animal Health Laboratory 
Network can be achieved.
    In summary, addressing the threat posed by the intentional 
or unintentional introduction of a high-consequence disease is 
a collaborative process. The role of academia in this challenge 
is but one component of a much broader solution. Preparedness 
is and will be dependent on a holistic, all-of-enterprise 
approach in solving this sector's complex problems, and 
supporting our livestock in allied industries will depend on a 
strong public-private partnership that is built on trust, 
collaboration, and resolve.
    Finally, Chairman McSally, Ranking Member Payne, and 
Members of the subcommittee, I want to thank you for the 
opportunity to speak to you today, and I look forward to your 
questions.
    [The prepared statement of Dr. Beckham follows:]
                 Prepared Statement of Tammy R. Beckham
                           February 26, 2016
    Thank you Chairman Donovan, Ranking Member Payne, and Members of 
the subcommittee for the honor of addressing you today.
    As the dean of the College of Veterinary Medicine at Kansas State 
University, I am pleased to speak with you regarding ``Efforts to 
Defend the Nation's Agriculture and Food.''
            u.s. agriculture: strengths and vulnerabilities
    As first designated in 2003 through Homeland Security Presidential 
Directive-7, the Food and Agriculture Sector is 1 of 16 critical 
infrastructures whose assets, systems, and networks are considered to 
be so vital to the United States that its incapacitation or destruction 
would have a debilitating effect on security, the National and global 
economy, public health and safety, or any combination thereof.\1\
---------------------------------------------------------------------------
    \1\ Department of Homeland Security. Homeland Security Presidential 
Directive 7: Critical Infrastructure Identification, Prioritization, 
and Protection. http://www.dhs.gov/homeland-security-presidential-
directive-7.
---------------------------------------------------------------------------
    The U.S. Agricultural sector is a diverse, complex, and highly-
integrated enterprise whose health and productivity is vital to the 
National economy. Agriculture in the United States is a $1 trillion 
business and this sector alone employs approximately 9.2% of American 
workers. In 2013, agriculture and agricultural-related industries 
contributed $789 billion to the U.S. gross domestic product (GDP), and 
in 2012 domestic animal agriculture (e.g., livestock and poultry 
production) produced approximately 1.8 million jobs, $346 billion in 
total economic output, and $60 billion in household income.\2\ \3\ 
Furthermore, in the United States, consumers spend on average, 
approximately 6.4% of their annual expenditures on food. This 
percentage is extremely low when compared to other countries whose 
expenditures range from 11% (Switzerland) to 47% (Pakistan).\4\ U.S. 
farmers and ranchers work hard to keep food prices low and are only 
able to accomplish this through increased efficiencies in production, 
achieved through technological advancements in industrial food 
production. Threats that jeopardize our production and the security and 
affordability of the U.S. food system have the potential to disrupt our 
social structure and cause political instability.
---------------------------------------------------------------------------
    \2\ USDA Economic Research Service. http://ers.usda.gov/data-
products/ag-and-food-statistics-charting-the-essentials/ag-and-food-
sectors-and-the-economy.aspx.
    \3\ Economic benefits of the Livestock Industry. iGrow, South 
Dakota State University Extension. July 2014.
    \4\ USDA Economic Research Service. http://www.ers.usda.gov/data-
products/food-expenditures.aspx#.UuE9EHn0Ay5.
---------------------------------------------------------------------------
    The bulk of the agricultural enterprise is almost solely owned and 
operated by the private sector, and the United States is currently the 
world's leading exporter of food. When evaluating the impact on the 
economy, the food supply and the Nation's jobs, it is clearly evident 
why this industry is deemed a U.S. critical infrastructure. Any 
disruption to the daily operations and/or productivity of this 
enterprise would have significant impacts on Americans' livelihoods, 
our food supply, the economy and our public health. Simply said, U.S. 
agricultural security is National security.
      threats and vulnerabilities of the u.s. agricultural system
    As I testify before you today, U.S. citizens reap the benefits of a 
robust agricultural industry that provides them with access to a safe, 
abundant, and affordable food supply that is readily available on the 
shelves of grocery stores Nation-wide. This is indeed a privilege that 
as you well know, does not exist globally. However, the very elements 
that make the U.S. agricultural sector robust and productive also make 
it vulnerable to a natural or intentional introduction of a biological 
agent. In fact, perhaps now, more than anytime in our history, the 
agricultural industries are at risk from a variety of threats that have 
the potential to severely disrupt our economy, our food supply, and 
cause great harm to our public health sector.
    Threats to our U.S. agricultural sector can come in a variety of 
forms, to include a natural introduction of a foreign (transboundary) 
animal, emerging, and/or zoonotic disease or an intentional 
introduction of a biological agent (agroterrorism) into our 
agricultural systems. These threats would result in significant 
morbidity and/or mortality among livestock or poultry, cause great 
economic harm, adversely impact and/or disrupt our food supply, and/or 
contribute to an adverse public health event. Many of these agents do 
not require weaponization, can be easily obtained, and exist naturally 
in areas where terrorist groups such as the Islamic State (ISIS), al-
Qaeda, al-Shabaab, Boko Haram, and others who intend to harm the United 
States operate. In addition, the risk from emerging infectious and/or 
zoonotic diseases continues to threaten our animal, plant, and public 
health sectors.
    The U.S. agricultural and public health systems, while free from 
devastating diseases such as Foot and Mouth Disease (FMD, since 1929), 
African Swine Fever (ASFV), Rift Valley Fever (RVF), and other highly 
pathogenic livestock and zoonotic diseases, are becoming increasingly 
at risk for an introduction of these and/or other emerging and/or 
zoonotic diseases. Impacts resulting from an introduction of a high-
consequence disease, agro-terrorist and/or bioterrorist agent into U.S. 
agricultural systems have been studied and published in peer-reviewed 
journals. Studies indicate that the magnitude and severity of an 
introduction of a high-consequence disease into U.S. livestock or 
poultry herds/flocks would be large. For example, the authors of a 
study recently completed by Kansas State University predicted that 
costs associated with an FMD outbreak in the Midwestern United States 
could result in a total of $188 billion in losses to the livestock and 
allied industries and up to $11 billion to the U.S. Government.\5\
---------------------------------------------------------------------------
    \5\ Economic impact of alternative FMD emergency vaccination 
strategies in the Midwestern United States. Ted C. Schroeder, Dustin L. 
Pendell, Michael W. Sanderson, and Sara McReynolds. Journal of 
Agricultural and Applied Economics. Volume 47, Issue 01, Feb. 2015. PP 
47-78.
---------------------------------------------------------------------------
    In addition to publications highlighting the economic and social 
impacts of a disease incursion, we have learned first-hand from recent 
experiences that the social, economic, and political fall-out from 
emerging disease incursions can be devastating. Most recently, the 
United States has witnessed incursions of porcine epidemic diarrhea 
virus (PEDV) in our swine populations (2013) and highly pathogenic 
avian influenza (HPAI) in our poultry populations (2015), as well as 
Ebola virus (EBOV; 2014) and Zika virus (2016) outbreaks in our public 
health sector. Each of these events further demonstrates our 
vulnerability to newly emerging and re-emerging pathogens that can be 
naturally or intentionally introduced.
    In the case of PEDV, the cause and route of introduction into the 
U.S. swine population has still not clearly been elucidated. 
Nevertheless, over half of the U.S. sow population was infected with 
PEDV, and the industry lost 10% (7 million) of the piglets born to 
these sows during this outbreak.\6\ More recently, the introduction of 
HPAI virus into the U.S. poultry population resulted in the destruction 
of approximately 7.5 million (7.5%) of the U.S. turkey population and 
41.1 million (10%) of the commercial chicken population. The total 
indemnity cost for this outbreak was approximately $191 million.\7\ The 
PEDV and HPAI outbreaks have reminded us that although we have made 
significant progress as a Nation and as a sector in preparing for both 
natural and intentional introductions of transboundary, emerging, and 
zoonotic diseases, they remain continual threats to the U.S. 
agricultural system and we still have a tremendous amount of work to 
accomplish.
---------------------------------------------------------------------------
    \6\ PEDv Dominates the Pig World. Gene Johnston. September 11, 
2014. http://www.agriculture.com/livestock/hogs/health/pedv-dominates-
pig-wld_284-ar45068.
    \7\ Update on H5Nx, Mia Torchetti, U.S. Department of Agriculture 
Animal and Plant Health Inspection Service, National Veterinary 
Services Laobratories, August 18, 2015.
---------------------------------------------------------------------------
    The increased risk of the above-mentioned threats to the U.S. 
agricultural and public health systems can be attributed to several 
social, environmental, and economic factors. First, there is increased 
movement of people, animals, plants, and products globally. Global 
commerce and air traffic moves at speeds that defy the ability to 
detect and prevent movement of diseases from their source in the early 
stages before detection. Indeed, animals and people can move and travel 
prior to clinical signs of a disease, thus arriving in another country 
already infected and able to spread the disease to people or animals 
they may contact. Second, trends in livestock production in the United 
States have resulted in more specialized, intensive, and concentrated 
farming practices, where large numbers of animals are produced on a 
much smaller number of premises. These vertically-integrated systems 
manage movements of animals and animal products to ensure a ``just-in-
time'' delivery to the next location (e.g., feedlot, finisher, packer, 
and retailer) in the food production system. Our livestock production 
systems execute a large number of animal movements daily. As an 
example, it is estimated that approximately 1 million swine and 400,000 
cattle are in transit to the next location in the production system at 
any one time during the day. An introduction of an agent, either 
naturally or intentionally, into these intensive farming systems could 
lead to wide-spread distribution through these movements within hours 
of its introduction. Furthermore, in the event of a disease outbreak in 
which a ``standstill'' or quarantine of animal premises is implemented 
as the primary control strategy, maintaining business continuity 
through the controlled movements of animals is critical for food 
security and animal health and welfare.
    Next, advanced technical capabilities are not required to obtain 
agents that can be utilized to promulgate an agro-terrorist event and/
or a bioterrorist event against our agriculture and public health 
systems. Many of the agents on the list of those most likely to be 
utilized to execute an agro-terrorist and/or bioterrorist event (such 
as FMDV, ASFV, and Ebola) are readily-available in countries throughout 
the world and do not need special handling or weaponization. As 
mentioned previously, these agents are readily available in countries 
in which terrorist groups such as the Islamic State (ISIS), al-Qaeda, 
al-Shabaab, Boko Haram, and others who intend to harm the United States 
operate. Last but certainly not least, we must not overlook the natural 
occurrence and emergence of diseases whether agricultural or zoonotic. 
Factors that lead to the emergence of disease include changes in socio-
economic, environmental, and/or ecological circumstances.\8\ It has 
been estimated that over 75% of all emerging pathogens are zoonotic and 
that zoonotic pathogens are twice as likely to be associated with an 
emerging disease than non-zoonotic pathogens.\9\ In addition, there are 
approximately 320,000 unknown viruses that infect mammals and that have 
not yet been identified and/or characterized.\10\
---------------------------------------------------------------------------
    \8\ Global trends in emerging infectious diseases. Nature. Kate E. 
Jones, Nikkita G Patel, Marc A Levy, Adam Storeygard, Deborah Balk, 
John L Gittleman, Peter Daszak. Volume 451; 21FEB2008.
    \9\ Taylor, L.H., Latham, S.M., Woolhouse, M.E. 2001. Risk factors 
for human disease emergence. Phil Trans R Soc Lond 356:983-989.
    \10\ Anthony, S.J., et. al. 2013. A strategy to estimate unknown 
viral diversity in mammals. MBio 4:e00598-13; doi: 10.1128/mBio.00598-
13.
---------------------------------------------------------------------------
    Over the last decade, members of the agricultural sector have made 
tremendous progress in preparing for a natural and/or intentional 
introduction of a transboundary, emerging and/or high-consequence 
disease agent. Public and private partnerships have been forged that 
have paved the way for significant advancements in the development of 
countermeasures (vaccines, immunomodulators, and diagnostic assays) for 
high-risk/high-priority agro-terror agents. For example, through a 
public/private partnership led by the U.S. Department of Homeland 
Security Science and Technology Directorate (DHS S&T) Agriculture 
Defense Branch, a conditional U.S. license for the first FMD vaccine 
that can be manufactured in the United States has been obtained. In 
addition, we have developed, validated, and deployed (to the National 
Animal Health Laboratory Network [NAHLN]) molecular assays that are 
capable of supporting early detection and response for many of the 
high-risk agro-terror agents. And last, but certainly not least, 
Federal, State, academic, and private partners have worked 
collaboratively to identify and prioritize risks, scan the global 
environment, perform comprehensive pathways analysis, and exercise 
disease outbreak response plans, all in an effort to enhance resiliency 
within each component of the sector.
    While each of these accomplishments are noteworthy because of their 
ability to better position our sector to respond to an agro-terror 
event, they are perhaps more noteworthy because of the breadth of 
partners that were assembled and worked together collaboratively to 
accomplish each and every milestone. In the case of the FMD vaccine, 
DHS S&T, U.S. Department of Agriculture Animal and Plant Health 
Inspection Service (USDA APHIS) and Agricultural Research Service (USDA 
ARS), biopharma, the livestock industries, and academia were all 
essential players in ensuring development, transition, and ultimate 
licensure of this product. Indeed, many more of these unique 
partnerships are needed and are, in fact, critical to ensuring our 
success. We have enjoyed many successes, but still have much to 
accomplish if we are to be fully prepared when, not if, a devastating 
natural or intentional introduction of one of these agents occurs.
     public and private-sector prevention, planning & preparedness 
                     activities: the academic role
    Our ability to defend U.S. Agriculture and Food from the threat of 
intentional, unintentional, or inadvertent introduction of high-
consequence disease is heavily dependent on a coordinated, 
collaborative, and comprehensive approach involving both State and 
Federal government, law enforcement, industry (biopharma and animal 
producers), and academia. We must work together as members of the 
agricultural enterprise to leverage expertise, develop technologies and 
networks and/or systems that will ultimately produce a more resilient 
agriculture and food system.
    Building on my previous roles with the Federal Government and 
academia, and in my current role as the dean of the KSU College of 
Veterinary Medicine, I take the security of our livestock and poultry 
systems very seriously, and respect the role of academia in this 
broader partnership. Furthermore, I know that preparedness stems from 
true partnerships and collaborations across the enterprise and it is 
only through leveraging expertise throughout all levels of the sector 
that we will meet the challenge of securing our Nation's agriculture 
and food supply.
    Since the formation of DHS in 2002, and with the release of 
Homeland Security Presidential Directive 9: Defense of United States 
Agriculture and Food (HSPD-9), DHS has assumed the responsibility to 
coordinate the overall National effort to protect the critical 
infrastructure and key resources of the United States, which includes 
agriculture. However, the USDA still has the primary responsibility for 
protecting the agricultural sector \11\ and does so with support from 
additional agencies to include the Department of Health and Human 
Services (DHHS), the Department of Interior (DOI), the Environmental 
Protection Agency (EPA), the Federal Bureau of Investigation (FBI), the 
Central Intelligence Agency (CIA), the Department of Defense (DOD), and 
the Attorney General (AG).
---------------------------------------------------------------------------
    \11\ Public Health Security and Bioterrorism Preparedness Response 
Act, 2002. http://www.gpo.gov/fdsys/pkg/PLAW-107publ188/pdf/PLAW-
107publ188.pdf.
---------------------------------------------------------------------------
    Academia, and in particular the Land Grant Universities, play a 
very unique and critical role in supporting the agricultural defense 
mission. Working with our stakeholders and Federal partners (USDA, DHS, 
and other State and Federal agencies), we perform cutting-edge and 
innovative research to develop countermeasures (e.g., vaccines, 
diagnostics, and immunomodulators), solutions, and technologies that 
can support our industry during peacetime, as well as in the event of a 
high-consequence disease and/or agro-terror event. Furthermore, through 
our teaching and outreach missions, we work diligently to train the 
next generation workforce and educate producers, stakeholders, and the 
public about novel technologies, policies, biosecurity practices, 
animal welfare, threats to the agricultural sector and much more. It is 
through these activities that our faculty and staff have developed 
strong relationships with producers, stakeholders, livestock owners, 
the allied industries and other National associations (e.g., National 
Pork Board, National Cattlemen's Beef Association). These relationships 
are built on trust and understanding and perhaps most importantly to 
homeland security and protection of the agricultural sector, provide a 
venue for a brokered, unbiased discussion and communication between the 
State and Federal Government and our agricultural sector. Academia is 
in a unique position to facilitate discussion between the public and 
private sector and oftentimes works to bridge the communication and 
trust gap so that solutions to complex challenges can be found. Simply 
stated, we are capable of acting as a ``trusted partner'' in what can 
sometimes be a complex relationship.
    Since 2002, with the formation of DHS and the release of HSPD-9 
(Defense of the United States Agriculture and Food) and HSPD-10 
(Biodefense for the 21st Century), the role of academia in supporting 
the homeland security mission and, more specifically in protecting our 
agriculture and food sector from an agro-terror threat, has broadened. 
HSPD-9 not only called for DHS to accelerate and expand development of 
current and new countermeasures against the intentional introduction or 
natural occurrence of catastrophic animal, plant and zoonotic diseases, 
it also called for the Secretaries of Homeland Security and Agriculture 
to establish university-based Centers of Excellence (COEs) in 
agriculture and food security. As a result of this directive, there are 
two COEs within the DHS S&T Office of University Programs (OUP) that 
are focused on agriculture and food security: The Zoonotic and Animal 
Disease Defense (ZADD), co-led by Kansas State University and Texas A&M 
University, and the Food Protection and Defense Institute (FPDI), 
formerly the National Center for Food Protection and Defense (NCFPD), 
led by the University of Minnesota. The primary mission of each of 
these Centers is to work across the agricultural enterprise to create 
novel solutions to homeland security challenges. Each of these Centers 
works closely with State and Federal partners, as well as the 
industries to ensure portfolio alignment with Nationally-identified 
priorities. Each COE has a robust set of partner universities, National 
and international collaborators and stakeholders that are routinely 
brought together in multi-institutional, multi-disciplinary teams to 
address the complex challenges that face our industries today.
    In light of the aforementioned roles and responsibilities, and in 
the context of a broadening academic presence in supporting homeland 
security, I would like to highlight a few instances in which academia 
has worked with other members of the agricultural enterprise to deliver 
products and/or technologies that have strengthened our Nation's 
ability to respond to and recover from a potential agro-terror event. 
In addition, I would like to touch on several on-going activities, each 
with a strong academic role, that demonstrate the power of partnerships 
and strength of a holistic approach to combatting a potential terror 
event.
    Over the past decade, the University COEs have worked closely with 
DHS S&T, USDA (APHIS and ARS), State Animal Health Officials (SAHOs), 
biopharma, and our livestock industries to identify and address 
National gaps in agriculture and food security. In particular DHS has 
sponsored multiple COE-led workshops that have convened producers, 
livestock owners, National organizations, State and Federal agencies, 
as well as industry and academia to identify and prioritize gaps, 
provide recommendations for addressing those gaps and help set National 
priorities for policy development and funding. For example, the 
agricultural screening tools workshops, designed to identify gaps in 
screening tools and diagnostics for high consequence agro-terror 
agents, helped develop and guide a robust program in diagnostic assay 
development. As a result of this program, multiple assays for early 
detection and/or recovery were developed, validated, and either 
accepted by the NAHLN for use during an animal disease event (FMD bulk 
tank milk assay), or transitioned to an industry partner for production 
and licensure (3B FMD ELISA). It was through intensive planning and 
partnership that each of the steps in development of these assays was 
accomplished. Academia, and in particular the COEs worked with DHS, 
USDA APHIS, and ARS, the livestock industry and biopharma to lead the 
development and transition of each assay, working diligently to ensure 
the assays met each of their requirements.
    The role that academia plays in the development, piloting, and 
transitioning of veterinary countermeasures and/or technologies cannot 
be overstated. Our ability to work in each segment of the development 
pipeline makes us unique in our capability to support the homeland 
security enterprise. During the last 6 years, the ZADD Center has 
enjoyed tremendous success in working with our Federal and State 
partners, biopharma, and the livestock industries to develop, 
transition, pilot, and ultimately license multiple products to aid in 
the detection or response to an agro-terror event. For example, the 
Center of Excellence in Emerging and Zoonotic Animal Diseases (CEEZAD), 
which is housed within the CVM at Kansas State University, is currently 
working with an animal health company to develop, test, and evaluate a 
novel recombinant vaccine for Rift Valley Fever virus (RVFV), a high-
consequence transboundary/zoonotic disease agent. If successful, this 
product will be produced, licensed, and available for purchase by the 
USDA APHIS National Veterinary Stockpile, should the need arise. 
CEEZAD's unique relationships with the biopharmaceutical industry 
allows for early input and buy-in regarding the products being 
developed within the Center. This increases the likelihood of 
acceptance, production, and eventual licensure of DHS S&T OUP sponsored 
research.
    In addition, the DHS S&T Agriculture Defense Branch has engaged the 
COE at Texas A&M University, the Institute for Infectious Animal 
Diseases (IIAD), and tasked them with working to develop a template, 
obtain permits, and forge relationships that will allow for the first-
ever international field trial of the newly-licensed FMD vaccine. If 
successful, this template will provide a robust guideline for 
performing a successful field trial, but more than that, it will 
provide a template, standard operating procedures, and solidify 
relationships that will be critical for supporting additional testing 
of future DHS S&T products in an international field-trial setting. 
Both of the aforementioned projects are excellent examples of how the 
DHS S&T Chemical and Biological Division (CBD) and DHS S&T OUP are 
working with a broad spectrum of partners, both individually and 
through academia, to enhance our Nation's agriculture and food 
security.
    Next, the USDA APHIS has worked closely with the Center for Food 
Security and Public Health (CFSPH) at Iowa State University to develop 
the Secure Food Supply Plans (eggs, turkeys, milk, pork, and beef). In 
the event of an animal disease outbreak, our industries must be able to 
resume movements from disease-free premises within a short amount of 
time. Any delay in this ability will result not only in product 
shortages but also in serious animal welfare issues. Supported by the 
USDA APHIS and led by an academic partner (CFSPH), the livestock and 
poultry industry, allied industries, State and Federal partners, and 
other stakeholders worked cooperatively to develop and vet each 
individual sector-specific plan. This multi-partner effort has resulted 
in the development of robust templates and guidance documents that can 
be utilized by State animal health officials for permitting movements 
of animals and animal products from disease-free premises in the event 
of an animal disease emergency.
    In addition to the examples given above, DHS S&T, SAHOs and the 
USDA engage academia for expertise in epidemiology, modeling, 
surveillance, pathology, immunology, and many other fields. Our ability 
to provide subject-matter expertise, perform research to address 
specific questions, and act as a hub for reach-back capabilities are 
just some of the attributes that make us a strong and vital partner.
    Last but certainly not least, Colleges of Veterinary Medicine and 
Agriculture across the United States are playing what is arguably their 
most important role in homeland security, and that is: Teaching, 
training, and preparing the next-generation homeland security 
workforce.
    The State of Kansas has a proud history of agricultural production, 
and it continues to be among the leading States in the Nation for crop 
and animal industry. For example, in 2014, Kansas ranked first among 
the States for production of sorghum for grain (200 million bushels), 
second for wheat (250 million bushels), third for commercial red meat 
production (5 billion pounds), and third in production of cattle and 
calves (6 million head).\12\ At K-State's College of Veterinary 
Medicine, we instill a respect for this agricultural enterprise and its 
relevance in feeding our Nation and the world among our students. The 
KSU CVM is one of the oldest veterinary colleges in the United States, 
and has graduated more than 5,000 men and women veterinarians. As 
opposed to many other veterinary schools, where the majority of 
students pursue small animal medicine, KSU prides itself on a strong 
focus on production animal medicine, which is put into practice by our 
Department of Clinical Sciences. Indeed, these graduates understand the 
role of animal health in the success of the Nation's agricultural 
system, and further recognize that veterinarians serve as the first 
line of defense in identifying incursions of transboundary, emerging, 
and zoonotic diseases.
---------------------------------------------------------------------------
    \12\ Kansas Department of Agriculture. Kansas Farm Facts. http://
agriculture.ks.gov/docs/default-source/Kansas-Farm-Facts-2015/
kansasfarmfacts2014final.pdf?sfvrsn=4.
---------------------------------------------------------------------------
    In the interest of developing the next generation of animal health 
professionals, the KSU CVM maintains a number of educational programs, 
including those in veterinary medicine, advanced clinical training, and 
research in animal health and related disciplines. The CVM's Department 
of Diagnostic Medicine/Pathobiology encompasses a number of research 
program thrusts that are directly relevant to defense of U.S. 
Agriculture. For example, a number of programs are focused on all 
aspects of infectious disease and include viral and bacterial 
pathogenesis of endemic and emerging diseases, vaccine and antiviral 
development and evaluation, diagnostic assay development and 
validation, epidemiology and ecology of infectious disease, and the 
study of vector-borne diseases. Researchers within the CVM also work 
closely with the KSU Biosecurity Research Institute (BRI), a 
biocontainment research and education facility. The BRI supports 
comprehensive ``farm-to-fork'' infectious disease research programs 
that address threats to plant, animal, and human health. The BRI 
facilitates diverse and multidisciplinary research and training 
opportunities, with the capability for research on foreign animal 
diseases in both large and small animal models, and basic and applied 
research. Faculty at the KSU CVM are working collaboratively with the 
BRI on projects addressing many of the highest-threat disease agents 
(e.g., Classical Swine Fever, African Swine Fever, and Rift Valley 
Fever).
    On a site adjacent to the KSU CVM and BRI, DHS is currently 
constructing the National Bio and Agro-Defense Facility (NBAF). This 
facility will serve to replace and augment the mission currently being 
performed by the Plum Island Animal Disease Center. The NBAF will ``be 
a state-of-the-art biocontainment laboratory for the study of diseases 
that threaten both America's animal agricultural industry and public 
health . . . [offering capabilities] to conduct research, develop 
vaccines, diagnose emerging diseases, and train veterinarians.''\13\ 
Needless to say, close collaboration between the NBAF and the KSU CVM 
and its allied partner programs, presents inestimable opportunities to 
further strengthen local and regional resources for addressing threats 
to U.S. Agriculture and Food.
---------------------------------------------------------------------------
    \13\ Department of Homeland Security. National Bio and Agro-Defense 
Facility. http://www.dhs.gov/science-and-technology/national-bio-and-
agro-defense-facility.
---------------------------------------------------------------------------
                     conclusion and recommendations
    As I've described, addressing the threat posed by the intentional 
or unintentional introduction of a high-consequence disease is a 
collaborative process. The role of academia is only part of a much 
broader solution. Across the Federal Government, programs in agencies 
such as Health and Human Services (HHS), the Department of Defense, 
U.S. Agency for International Development, U.S. Geological Survey, and 
the Environmental Protection Agency must come together with USDA (APHIS 
and ARS) and DHS. Similarly, engagement of industry stakeholders from 
dairy, pork, beef, and poultry, as well as the allied industries, must 
occur to ensure that technological solutions and operational response 
measures are viable. Given the availability of high-consequence 
infectious agents abroad, a holistic approach to bio- and agro-defense 
must also involve threat reduction at the global level. This should 
involve multi-national collaborators such as the Defense Threat 
Reduction Agency (DTRA), the Food and Agriculture Organization of the 
United Nations (UN FAO) and the World Organization for Animal Health 
(OIE) to name a few.
    In addition to the need for collaboration there is also a need to 
allocate adequate resources to address the Nation's vulnerability in 
this area. Considering the significance of agriculture to the American 
public's well-being, measures should be taken to correct the drastic 
imbalance in research and countermeasure funding for agriculturally-
focused threats, versus human-centric ones. For example, during fiscal 
year 2014, 61% of Federal funding for biodefense was allocated to HHS, 
while USDA received only 1%.\14\ Similarly, the Strategic National 
Stockpile, which houses the Nation's repository of antibiotics, 
vaccines, chemical antidotes, antitoxins, and other critical medical 
equipment and supplies, received approximately $510 million, while the 
National Veterinary Stockpile received approximately $4 million. As 
further evidence of this imbalance, in 2007, the Laboratory Response 
Network, an integrated network of State and local public health, 
Federal, military, and international laboratories that can respond to 
bioterrorism, chemical terrorism and other public health emergencies, 
had an annual budget of approximately $50 million\15\ while the NAHLN 
receives only $6 million dollars annually to support its operations.
---------------------------------------------------------------------------
    \14\ Sell, T.K. and Watson, M. Federal Agency Biodefense Funding, 
FY2013-FY2014. Biosecurity and Bioterrorism: Biodefense Strategy, 
Practice, and Science. Volume 11, Number 2, 2013. PP 196-216.
    \15\ State Public Health Laboratories: Sustaining Preparedness in 
an Unstable Environment. March 2009, Association of Public Health 
Laboratories.
---------------------------------------------------------------------------
    There is also a need to increase emphasis on educational programs 
to further support U.S. Agriculture and Food. Efforts such as the DHS 
Centers of Excellence should receive additional resourcing, and U.S. 
veterinary curricula should emphasize the changing role of the 
veterinarian as part of a global defense against high-consequence 
transboundary, emerging, and/or zoonotic diseases. Additional funds 
should be provided for agro-defense-focused research, through avenues 
such as the USDA National Institute of Food and Agriculture (NIFA), the 
National Institutes of Health (NIH) and lastly but not least, through 
increased funding for programs that will be housed within the National 
Bio and Agro-Defense Facility (NBAF). Indeed, with construction of a 
state-of-the-art $1.25 billion facility, it is critical to ensure a 
stable and appropriate level of resources and funding for the research, 
training and diagnostic missions that will be housed within it. 
Currently, budgets for the USDA APHIS, ARS, and DHS S&T at PIADC do not 
account for the planned expansion of research/diagnostic/training 
programs that will occur in the new NBAF facility. I urge you to 
increase agency programmatic budgets for the NBAF mission, so that the 
full potential of the facility, and its DHS and USDA programs, can be 
achieved.
    Preparedness for a natural or intentional introduction of a high-
consequence agricultural event is dependent on a holistic, all-of-
enterprise approach. Solving this sector's complex problems and 
supporting our industries will depend on a strong public/private 
partnership that is built on trust, collaboration, and resolve.
    Finally, Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, I want to thank you for this opportunity to speak to you 
regarding efforts to defend the Nation's agriculture and food. I look 
forward to your questions.

    Ms. McSally. Thank you. The Chair recognizes Mr. Acord for 
5 minutes.

 STATEMENT OF BOBBY ACORD, FORMER ADMINISTRATOR, ANIMAL PLANT 
  HEALTH INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
  TESTIFYING ON BEHALF OF THE NATIONAL PORK PRODUCERS COUNCIL

    Mr. Acord. Madam Chairwoman, Ranking Member Payne, Members 
of the subcommittee, the U.S. Department of Agriculture 
industry and the U.S. food supply always have been at great 
risk from pest and disease. That risk has continued to increase 
over the years because of increases in travel, tourism, and 
trade, each passenger handbag, each piece of luggage brought 
into the United States poses a risk. Every parcel mailed to the 
United States poses a risk. Large volumes of commodities and 
products from a wide range of countries are transported 
legally, and some illegally, to the United States every year by 
different conveyances, all of which may be carrying a disease 
or hitchhiking pest.
    Now the country faces a new risk: Terrorists weaponizing 
disease to inflict harm on the U.S. economy. Of particular 
concerns of the livestock industry is foot-and-mouth disease. 
It is a highly contagious viral disease affecting all cloven-
hoofed animals. The structure of the U.S. livestock industry 
makes the United States particularly vulnerable to a large-
scale foot-and-mouth disease outbreak. There are an estimated 1 
million pigs and 400,000 cattle moved daily in the United 
States, some over long distances. There are numerous auctions, 
fairs, exhibits that concentrate large numbers of animals in a 
single location. Those movements and concentrations provide 
opportunities for just one infected or exposed animal to infect 
many others.
    The U.S. industry is also concerned about African swine 
fever that has reared its ugly head in Russia, Belarus, and 
eastern European countries that border Russia and those other 
countries. It is a disease for which there is no means of 
control. As Dr. Meckes mentioned, there is an insufficient 
quantity of foot-and-mouth vaccine. With support of the 
livestock industry, APHIS changed its policy on managing a 
foot-and-mouth disease outbreak from culling all infected and 
exposed animals to one of vaccination in all but the smallest 
of outbreaks.
    When discussing how this policy would be implemented, it 
became apparent that there is not enough vaccine to deal with 
an outbreak, and there is no capability of producing a 
sufficient quantity to deal with an outbreak in the United 
States.
    The livestock industry has made it clear that a solution to 
the vaccine shortage must include a contract for an offshore 
vendor-maintained bank that includes antigen for all 23 FMD 
types that are currently circulating in the world, and that a 
contract be awarded for surge capacity to produce sufficient 
quantities of vaccine in the event of an outbreak in the 
livestock herd.
    There are gaps in the U.S. biosecurity system. Most 
outbreaks, the first problem encountered is the lack of 
biosecurity, which contributes to the spread of the disease. 
One solution to this problem is that in addition to test 
exercises, the Federal and State agencies need a more robust 
review of biosecurity measures in each section of the 
agriculture industry.
    We need more robust scrutiny of imports. Federal agencies 
are relying too much on the ports of entry as the first line of 
defense against pest disease introduction. More emphasis must 
be placed on what happens during processing production of 
products in the countries of origin.
    We had an outbreak of Porcine Epidemic Diarrhea in the 
United States in 2013, and the means and the method by which 
that introduction was brought to the United States has never 
been discovered. If that gap in the security system is still 
open, then it is open for FMD and all other diseases as well.
    We have a serious problem with animal traceability in this 
country. It is inadequate for the use in an animal disease 
outbreak. In fact, it is not even recognized as adequate to 
meet the requirements of some of the major U.S. trading 
partners. Many of the shortfalls identified today are the 
result of lack of adequate resources, risks to U.S. agriculture 
and the U.S. food supply have increased dramatically over the 
last few years, and have now been exacerbated by the threat of 
terrorist targeting agriculture production. At the same time, 
funding provided to maintain the country's safeguarding system 
has been reduced. We simply can't have it both ways.
    In conclusion, there seems to be a growing consensus that 
there are serious flaws in the country's preparedness to deal 
with threats to the U.S. agriculture and the food supply. The 
bipartisan report of the Blue Ribbon Study Panel on Biodefense 
highlighted the need for improvements in the system for 
protecting U.S. livestock herd in the Nation's food supply.
    A lot of information has been gathered from that report, 
from the hearings that you have held, from hearings that have 
been held at the Department of Agriculture--excuse me, by the 
Committee on Agriculture. There is a lot of information that 
has now been developed, and it seems that from the perspective 
of the National Pork Producers Council and probably, more 
largely, the livestock industry, it is now time to catch and to 
work with the Obama administration to let's fill these gaps, 
and let's not continue to just look, let's act at this point. 
Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Acord follows:]
                   Prepared Statement of Bobby Acord
                           February 26, 2016
                              introduction
    The National Pork Producers Council (NPPC) is an association of 43 
State pork producer organizations that serves as the global voice in 
Washington, DC, for the Nation's pork producers. The U.S. pork industry 
represents a significant value-added activity in the agricultural 
economy and the overall U.S. economy. Nation-wide, more than 68,000 
pork producers marketed more than 110 million hogs in 2014, and those 
animals provided total gross receipts of $23.4 billion. Overall, an 
estimated $22.3 billion of personal income and $39 billion of Gross 
National Product are supported by the U.S. pork industry.
    Economists Daniel Otto, Lee Schulz, and Mark Imerman at Iowa State 
University estimate that the U.S. pork industry is directly responsible 
for the creation of more than 37,000 full-time equivalent pork-
producing jobs and generates about 128,000 jobs in the rest of 
agriculture. It is responsible for approximately 102,000 jobs in the 
manufacturing sector, mostly in the packing industry, and 65,000 jobs 
in professional services such as veterinarians, real estate agents, and 
bankers. All told, the U.S. pork industry is responsible for nearly 
550,000 mostly rural jobs in the United States, and U.S. pork producers 
today provide 23 billion pounds of safe, wholesome, and nutritious meat 
protein to consumers world-wide.
                     disease and pest introductions
    The U.S. agriculture industry and the U.S. food supply always have 
been at great risk from pests and disease. That risk has continued to 
increase over the years because of increases in travel, tourism, and 
trade. Each passenger handbag and piece of luggage brought into the 
United States and every parcel mailed to this country presents a risk 
of transporting disease to some sector of the agriculture industry. 
Large volumes of commodities and products from a wide range of 
countries are transported legally and illegally to the United States 
each year by different conveyances, all of which may be carrying a 
disease or hitchhiking pest. Now the country faces a new risk: 
Terrorists weaponizing disease as a means of inflicting harm on the 
U.S. economy. Whether by accident or deliberate introduction, the 
impact of a disease or pest on U.S. agriculture and the food supply 
could be devastating.
    Over the last few years, the United States has seen numerous 
introductions of pests and diseases that have affected agriculture 
production. Citrus Canker and Citrus Greening are wrecking havoc on the 
Florida citrus industry. Other pests that serve as disease vectors have 
had a serious impact on fruit and vegetable production in other parts 
of the country, particularly California. In April 2013, Porcine 
Epidemic Diarrhea infected a swine herd in Ohio, and it spread rapidly 
through most of the U.S. swine industry, resulting in an estimated loss 
of more than 8 million newborn pigs, which took an emotional toll on 
producers and ultimately increased prices to consumers. Subsequently 2 
other swine diseases of Asian origin were discovered, Delta Corona 
Virus and Orthoreovirus. In 2015, High Pathogenic Avian Influenza 
(HPAI) was discovered in poultry flocks in the Midwest, resulting in 
the culling of millions of turkeys and laying hens, particularly in 
Iowa and Minnesota.
                            current threats
    When compared with many countries in the world, U.S. agriculture is 
relatively free of pests and disease. Through cooperation between the 
Government and agriculture industries, some of the most serious pests 
and diseases have been eradicated. Foot and Mouth Disease (FMD), 
Classical Swine Fever (CSF), Pseudorabies in swine, Screwworm, Cotton 
Boll Weevil, and numerous fruit fly infestations have all been 
successfully eradicated but at great cost to taxpayers and the affected 
industries. Yet all these diseases and pests still lurk around the 
world, some very close to the U.S. mainland, and are still serious 
threats.
    Of particular concern to the livestock industry is FMD, a highly 
contagious viral disease affecting all cloven-hoofed animals. FMD is 
easily spread by livestock movement, wind currents, on vehicles that 
have traveled to and from infected farms and on inanimate objects that 
have come in contact with the virus. This economically devastating 
disease is endemic in 113 countries around the world. In 2014, the 
World Organization for Animal Health (OIE) reported 779 FMD outbreaks 
in member countries. The structure of the U.S. livestock industry makes 
the United States particularly vulnerable to a large-scale FMD 
outbreak. There are an estimated 1 million pigs and 400,000 cattle 
moved daily in the United States, some over long distances, and there 
are numerous auctions, fairs, and exhibits that concentrate large 
numbers of animals in a single location. Those movements and 
concentrations provide opportunities for 1 infected or exposed animal 
to spread disease to a large number of animals and over long distances.
    The U.S. swine industry also is very concerned about the emergence 
of African Swine Fever (ASF) in Russia, the Ukraine, Belarus, and the 
Eastern European countries of Estonia, Latvia, Lithuania, and Poland. 
ASF is a highly contagious viral disease for which there is no vaccine 
or method of control except strict biosecurity and culling of infected 
animals. The disease has become endemic in those countries' feral swine 
populations, with occasional spread to backyard pigs and commercial 
production. An ASF introduction in the United States would be 
devastating to the U.S. pork industry.
    Also of great concern is CSF. Previously eradicated from the United 
States, it lurks very close to the U.S. mainland in Hispaniola. It is 
also prevalent in Central and South America and other countries around 
the world. Vaccines are available and stockpiled for use, but an 
outbreak in the United States would have serious economic consequences.
    While the above highlighted diseases are the livestock industry's 
worst fears, the U.S. Department of Agriculture's Animal and Plant 
Health Inspection Service (APHIS) focuses on preventing 160 animal 
diseases from entering the United States. Animal and plant diseases can 
be devastating to agriculture production, but the high value of animal 
agriculture makes introduction of animal diseases far more economically 
significant. Pests and diseases of concern are monitored by U.S. 
authorities through port-of-entry inspections and surveillance by APHIS 
and State departments of agriculture.
             consequences of pest and disease introduction
    Introduction of pests and diseases can have severe economic 
consequences for agriculture production, consumer prices and, 
potentially, food availability. Also of great concern is the loss of 
export markets. The United States is required by the International 
Plant Protection Convention (IPPC) and the OIE to report pest and 
disease introductions that are listed by those international bodies as 
economically significant or trade limiting or that are new or emerging 
diseases. In most cases, such reporting would result in an immediate 
loss of exports for the affected commodity or products, causing a 
precipitous drop in U.S. market prices.
    The economic consequences of disease introduction are often not 
limited to just one agriculture sector. Iowa State University economist 
Dermot Hayes estimates that an FMD outbreak in the United States would 
result in revenue losses to the beef and pork industries of $12.9 
billion per year over a 10-year period; the corn and soybean industries 
are estimated to lose $44 billion and $24.9 billion, respectively. 
These estimates do not include losses to the dairy industry. Also, they 
do not include the costs, which are likely to be millions of dollars, 
to the Federal and State governments for culling, vaccinating, and 
other activities associated with controlling the disease.
                          improved protection
    There have been several improvements in the systems to safeguard 
U.S. agriculture. Creating the Bureau of Customs and Border Protection 
(BCBP) and combining APHIS's agriculture inspectors into that single 
agency has been a positive development. In the early stages of the 
reorganization, there appeared to be a lack of focus by BCBP on the 
importance of agriculture inspections, but pressure from the 
agriculture industries and Members of Congress resulted in significant 
improvements over time. Anecdotal evidence gathered through interviews 
with agriculture inspectors formerly housed in APHIS suggests improved 
enforcement of agriculture regulations through use of the broader 
enforcement authority of BCBP. However, much remains to be done to 
improve the ability of the United States to exclude plant and animal 
pests and diseases from entering the country.
    APHIS has worked with the animal agriculture industries to develop 
Secure Food Supply Plans for pork, beef, milk, turkeys, and eggs. The 
plans, which are in various stages of development, focus on tightened 
biosecurity and compartmentalization of diseases to allow movement of 
animals to slaughter and products to the marketplace. They also allow 
for movement of live animals within a compartment. If the United States 
can gain acceptance of these plans by its trading partners, it will 
lessen the economic impact of a disease.
    Communications among State and Federal agencies also have improved, 
and the Department of Homeland Security has assisted with exercises to 
test the country's preparedness for disease outbreaks. Additionally, 
creation of the Food and Agriculture Sector Coordinating Council has 
raised awareness of the need for biosecurity throughout the food chain.
                            vulnerabilities
    Even though there have been significant improvements in the systems 
for safeguarding U.S. agriculture and the Nation's food supply, there 
are still significant vulnerabilities and challenges that must be 
addressed. They include:
    An insufficient quantity of FMD vaccine.--With support of the 
livestock industry, APHIS changed its policy on managing an FMD 
outbreak from culling all infected and exposed animals to one of 
vaccination in all but the smallest of outbreaks. Based on experience 
with outbreaks in the United Kingdom and Korea, the United States 
simply cannot euthanize its way out of an outbreak; vaccination is the 
only realistic alternative. When discussing how this policy would be 
implemented, it became apparent that to deal with an outbreak there was 
not enough vaccine available nor could a sufficient quantity be 
obtained in time to implement an effective control program.
    The United States is the only country in the world that maintains 
its own vaccine antigen bank, and it serves all of North America. The 
bank is maintained at the Plum Island Animal Disease Center (PIADC) on 
Plum Island, NY, and has a limited number of antigens. Under the 
current manufacturer(s)' contract, antigen is shipped to Europe where 
it is made into finished vaccine that then is shipped back to the 
United States. After 3 weeks, this process would produce only 2.5 
million doses of vaccine. Dr. James Roth, professor and researcher at 
Iowa State University, estimates that at least 10 million doses would 
be needed during the first 2 weeks of an outbreak. Currently, there is 
no surge capacity to produce additional doses of vaccine. All the 
vaccine production capacity in the world is currently in use by other 
countries.
    Current law prohibits live FMD virus from being introduced onto the 
U.S. mainland, so foreign production companies are the only source of 
finished vaccine. It has been suggested that recombinant DNA vaccines 
that do not use live FMD virus can be produced in the United States, 
thus avoiding the legal prohibition of having live virus on the 
mainland. However, current data is not sufficient to determine how 
quickly, and indeed whether, such vaccines provide protection outside 
the laboratory environment and for all species. The United States is 
likely years away from the development and commercialization of such 
novel vaccines. While developing such a vaccine would be a positive 
move, the reality is that the U.S. livestock industry must have 
vaccines that are protective against the strain of FMD that might be in 
a sample sitting at the PIADC for analysis at this very moment!
    The House Agriculture Committee's Subcommittee on Livestock and 
Foreign Agriculture held a hearing Feb. 11, 2015, on the FMD vaccine 
shortage. The livestock industry made it clear that a solution to the 
vaccine shortage must include a contract for an offshore, vendor-
maintained bank that includes antigen for all 23 FMD types that are 
currently circulating in the world and that a contract be awarded for 
surge capacity to produce sufficient quantities of vaccine for an 
outbreak in the U.S. livestock herd.
    Gaps in U.S. biosecurity.--Both USDA and DHS focus a lot of 
attention on test exercises, and those are very beneficial activities. 
In most outbreaks, the first problem encountered is the lack of 
biosecurity, which contributes to the spread of disease. By the time 
adequate biosecurity is established the disease has been spread over 
much larger areas and control becomes much more challenging and costly. 
Test exercises do not accurately reveal what happens during an actual 
outbreak.
    Current pork production methods concentrate large numbers of 
animals in a single location, and the pork industry has always prided 
itself on having a robust biosecurity system. However, during the PEDv 
outbreak in 2013, the industry discovered serious gaps in biosecurity 
that contributed to spreading the disease. The same problem was also 
identified in the HPAI outbreak in 2015.
    One solution to this problem is that, in addition to test 
exercises, Federal and State agencies need a more robust review of 
biosecurity measures in each sector of the agriculture industry. 
Producers and their allied industries should be provided resources to 
increase training on the importance of biosecurity and how to identify 
gaps in their systems. While this would require additional resources, 
the potential savings to the Government are significant, providing a 
very favorable cost/benefit ratio.
    More robust scrutiny of imports.--Federal agencies are relying too 
much on the ports of entry as the first line of defense against pest 
and disease introduction. More emphasis must be placed on what happens 
during processing and production of products in the countries of 
origin. With most cargo being moved in containers, thorough inspection 
at the port of entry is virtually impossible. APHIS prepares risk 
assessments for all plant- and animal-origin products moving into U.S. 
territory, and in many cases those assessments are based on information 
supplied by Government officials and do not always include a site 
visit. Further, because of resource constraints, there is not enough 
follow up to assure that risk mitigations are being followed.
    The U.S. Food and Drug Administration is responsible for inspection 
of feed and feed ingredients produced in foreign countries and in the 
United States. Not enough resources are being made available to APHIS 
and FDA to do a thorough inspection of foreign manufacturers to 
determine if they are following good manufacturing practices and if 
Government regulation and oversight are effective. That shortfall 
increases the risk to U.S. agriculture of disease introduction.
    The strain of the PED virus introduced into the United States was 
determined to be of Chinese origin. But Government officials 
responsible for overseeing port-of-entry inspections and disease risk 
management have been unable to specifically identify the source or 
means of introduction of the virus even though APHIS conducted a root 
cause investigation. If there were a gap in the U.S. safety net that 
allowed the recent introduction of PEDv and Delta Corona virus, it also 
remains open for FMD!
    Traceability.--The U.S. pork industry has been a vocal advocate for 
a robust Nationally-standardized mandatory system for animal 
traceability. APHIS spent years working on a system of individual 
animal identification to allow accurate tracing of the movement of 
livestock, which is an absolutely critical component of any system for 
managing disease. Unfortunately, opposition from some sectors of the 
livestock community resulted in a compromise that provided only a 
State-based system that requires each State to be able to trace 
livestock movements within its State. The current traceability system 
is inadequate for use in a disease outbreak. In fact, it is not even 
recognized as adequate to meet the requirements of some major U.S. 
trading partners.
    Resource constraints.--Many of the shortfalls identified in this 
testimony result from of a lack of adequate resources. Risks to U.S. 
agriculture and the U.S. food supply have increased dramatically over 
the last few years and have now been exacerbated by the threat of 
terrorists targeting agriculture production. At the same time, funding 
provided to maintain the country's safeguarding systems have been 
reduced. It is hard to conceive that enough efficiencies can be found 
to address an increasing threat and save money at the same time. 
Collectively, the agriculture industry, the Obama administration and 
Congress must face the reality that addressing these serious 
shortcomings in the U.S. safety net will require a significant outlay 
of additional funds. We can't have it both ways! The history of 
Government involvement in disasters such as disease outbreaks is that 
once an outbreak occurs unlimited resources are committed to getting 
control of the situation. The savings everyone wants to make can be 
achieved by investing now in the Nation's preparedness and avoiding a 
more costly disease eradication program in the future.
    Gaps in early detection.--Early disease detection and rapid 
response to any outbreak provide the best opportunity to limit the 
spread of Foreign Animal Diseases (FADs). Even though there is 
surveillance in place for CSF, ASF, and FMD, it is apparent that the 
funding is wholly inadequate to provide a high level of confidence that 
one of these trade-limiting FADs will be rapidly detected in time to 
make a difference. This is evidenced by the discontinuation in 2015 
because of a lack of funding of a pilot project conducted by USDA's 
Veterinary Services, using the surveillance infrastructure built for 
CSF to actively detect ASF and FMD.
    Data sharing for regulated diseases.--As evidenced during the HPAI 
outbreak, the amount of movement, testing, and premises data that needs 
to be captured, analyzed, and visualized by the APHIS incident 
command--responsible for dealing with animals disease outbreaks--to 
support disease response and business continuity activities is 
staggering. While the various pieces of this type of data exist, much 
of it resides in disparate databases that do not readily and easily 
communicate, which hinders the response and jeopardizes animal welfare. 
The industry is very concerned that this lack of connectivity will have 
direct and negative effects that will hinder the response to a foreign 
animal disease of swine.
                               conclusion
    There seems to be a growing consensus that there are serious flaws 
in the country's preparedness to deal with threats to U.S. agriculture 
and the U.S. food supply.
    The Bipartisan Report of the Blue Ribbon Study Panel on Biodefense, 
co-chaired by former DHS Secretary Tom Ridge and former Sen. Joe 
Lieberman and released Oct. 28, 2015, highlighted the need for 
improvements in the system for protecting the U.S. livestock herd and 
the Nation's food supply. Concerns about the adequacy of the country's 
preparedness also were raised in a Nov. 4, 2015, hearing of the House 
Agriculture Committee.
    NPPC urges Congress to use the information gathered in that hearing 
and in the Blue Ribbon Study Panel report to work with the Obama 
administration on finding solutions to improve the preparedness of the 
United States to deal with any pest or disease outbreak.

    Ms. McSally. Thank you, Mr. Acord. The Chair now recognizes 
Dr. Williams for 5 minutes.

STATEMENT OF BRIAN R. WILLIAMS, ASSISTANT EXTENSION PROFESSOR, 
                  MISSISSIPPI STATE UNIVERSITY

    Mr. Williams. Chairman McSally and Members of the 
subcommittee, thank you for the opportunity to appear today to 
talk about the risk that our Nation faces from agroterrorism. 
As an ag economist from Mississippi State University, I spend a 
large portion of my time researching ag markets and the impacts 
that shocks can have to those markets. Our country's ag and 
food production system faces many challenges today, one of 
which is a risk of major disruption to the system. It is 
essential that we be prepared to face these threats to prevent 
and/or minimize the impacts they may have on our food system.
    As mentioned by my fellow witnesses, our poultry industry 
faces devastating Avian influenza outbreak in 2015. In Iowa 
alone, 30 million layers were lost, and 1.5 million turkeys 
were lost, resulting in a direct impact of $658 million.
    Other industries are also impacted. This is known as a 
multiplier effect, and that multiplier effect resulted in a 
total economic impact of $1.2 billion, and more than 8,000 jobs 
lost.
    On a positive note, some of those losses in Iowa were 
partially offset with increases in sales in other States. 
Mississippi alone, ag producers in the State saw 40 percent 
year-over-year increase in sales. Keep in mind, those increased 
egg prices were also passed on to consumers. So there is a 
negative on that side as well.
    Prior to the Avian influenza outbreak, the poultry industry 
already had several biosecurity measures put in place by 
companies such as Sanderson Farms and Tyson, who owned the 
birds and contract the producers to grow and raise those birds. 
The State and Federal agencies also helped to develop those 
guidelines.
    Despite all of these measures that were already in place, 
the industry was not prepared for an outbreak when disasters 
strike. In the time since the outbreak, industry leaders, State 
agencies and Federal agencies have all come together to develop 
a plan to quickly and efficiently address future outbreaks. 
This can also be applied to agroterrorism and provides an 
excellent framework for other industry to work from.
    One benefit of agriculture is that production is spread 
over a wide area. As a result, natural disasters and other 
disruptions are quite common, but typically have minimal 
impacts. For example, the snowstorm about a month ago that hit 
the States of Nebraska, Iowa, Colorado, and Kansas, all but 
shut down the meat-packing industry for nearly 2 days. Yet the 
markets didn't respond to that shock.
    Another example, a similar snowstorm earlier this year in 
Texas and New Mexico, killed more than 30,000 dairy cows, and 
caused significant damage on a local level. Yet Nationally, the 
milk futures only increased for a week before returning to 
their previous levels.
    One of the greatest threats from agroterrorism that we face 
is an introduction of something that could shut down our export 
industry. An example of this is in 2003 when had a BSE, a cow 
test positive for BSE in Washington State that shut down our 
export industry on our beef cattle. It took 7 years for exports 
to return back to the level that they were before that positive 
test of BSE. But despite that shutdown in exports, the cattle 
markets really were not impacted on a large scale.
    Moving on to our crop industry. With fruits and vegetables, 
the biggest threat that we really face is something that can 
potentially harm us as humans: The introduction of E. Coli, or 
salmonella. Our fruits and vegetables are typically grown 
outdoors, in the ground, many of them very close to the ground 
so they are susceptible to contamination, whether it be natural 
from birds or introduced from terrorists. While there is a 
system in place to detect and track these introductions, there 
is still definitely room for improvement in that area.
    Row crops are much less susceptible to agroterrorism and 
natural disasters. The damage must be on a large scale to have 
a significant impact on the Nation's economy. The biggest 
threat that we face right now is drought, a wide-spread drought 
as we saw in 2012. The 2012 drought took nearly 3 years for our 
Nation's row crop industry to really get back to normal levels.
    The other thing to keep in mind on that side of things is 
the conditions have to be nearly perfect at the field level for 
a terrorist to introduce a pathogen that would really take hold 
and spread. So, the likelihood of that is not very high.
    In conclusion, past incidences of disruption have shown the 
U.S. ag sector is remarkably resilient. In most cases, it would 
be difficult for a producer to inflict damage on a large enough 
scale, with the exception of possibly our foot-and-mouth 
disease, and some of these diseases in the livestock sector, to 
cause a National impact. What is really key to minimizing these 
effects is to take measures to keep them at a localized level. 
If these impacts are at a localized level, our ag sector has 
shown a remarkable ability to bounce back from these types of 
incidences.
    [The prepared statement of Mr. Williams follows:]
                Prepared Statement of Brian R. Williams
                           February 26, 2016
    Chairman Donovan and Members of the Emergency Preparedness, 
Response, and Communications Subcommittee, thank you for the 
opportunity to appear today to talk about the risk that our Nation 
faces from individuals or organizations who wish to disrupt our 
agricultural and food system. I am an agricultural economist from 
Mississippi State University and spend a large portion of my time 
researching agricultural markets and the impacts of various shocks to 
the markets. Our country's agricultural and food production system 
faces many challenges today, one of which is the risk of a major 
disruption to the system; whether it be in the form of a terrorist 
attack or from a natural disruption. It is essential that we be 
prepared to face these threats to prevent and/or minimize the impacts 
they may have on our food system.
                      learning from recent events
    In August of 2015, an outbreak of Highly Pathogenic Avian Influenza 
(HPAI) hit several States in the Midwest and Pacific Northwest, 
inflicting a significant amount of damage in its path. Iowa alone lost 
30 million layers and pullets as well as 1.5 million turkeys with 
direct impact of just over $658 million (Iowa Farm Bureau, 2015). In 
addition to the direct impact of lost production, there are also 
indirect impacts that need to be considered. For example, suppliers and 
vendors that normally market goods and services to the poultry 
operations will see reduced income. As a result, they will make fewer 
household purchases, hurting the sales of additional businesses; 
creating a multiplier effect. According to a study commissioned by Iowa 
Farm Bureau, this multiplier effect resulted in a total economic impact 
of $1.2 billion to the State of Iowa's economy, including 8,444 lost 
jobs.
    Agricultural production in the United States is dispersed across a 
large area, which helps to mitigate impacts on a National level. In the 
case of egg production, while Iowa saw significantly reduced 
production, other States saw increases in their sales. I have estimated 
that the State of Mississippi alone, egg producers benefited from an 
increase of $93.6 million in production, a 40 percent year-over-year 
increase, as a result of increased egg prices. It is highly likely that 
several other States experienced similar increases in egg sales. Of 
course, the increased egg prices are ultimately passed on to consumers, 
increasing the average American's grocery bill. This phenomenon is also 
pointed out by Pendell et al. in their study of the potential release 
of foot-and-mouth disease from the future National Bio and Agro Defense 
Facility in Manhattan, Kansas.
    Much can be learned from the HPAI outbreak in the spring of 2015. 
Prior to the outbreak, the poultry industry already had several bio-
security measures in place. Many of those measures had been put into 
place by companies such as Sanderson Farms and Tyson, who own the birds 
but are contracting producers to grow and raise them, as a protection 
for their investment. Many of the protocols already in place by the 
bird owners were developed with the assistant of State agencies. The 
USDA and APHIS also had several simple, commonsense guidelines in 
place. Despite all of these measures that were already in place, the 
industry was ill-prepared for actually dealing with a disastrous event 
such as HPAI. In the time since the outbreak in 2015, industry leaders, 
State agencies, and Federal agencies have all come together to develop 
an elaborate plan to quickly and efficiently address future outbreaks. 
The plan includes a quarantine of the infected area, testing of all 
birds within a 3-mile radius, and requiring a written permit for anyone 
entering and/or exiting the area. The model that the poultry industry 
has put into place can easily be applied even in the case of agro-
terrorism and provides an excellent framework for other industries as 
well.
                 economic impacts in animal agriculture
    There are several things to consider when trying to estimate the 
economic impact of a terrorist attack on animal agriculture. First, how 
wide-spread is the damage? If the damage is localized to a single 
county or even multi-county area, the impact will likely be minimal. In 
some cases, insurance will pay indemnities to producers for the value 
of the animals that are lost. Indemnities may also be paid by the USDA. 
If facilities must be quarantined or sterilized before introducing new 
animals, insurance will not reimburse producers for lost future 
production. That could compound the economic impact of a disease 
outbreak, whether natural or introduced by terrorists. As mentioned 
above, there are also multiplier effects that must be factored in. For 
example, in the State of Mississippi the multiplier effect for jobs is 
2.32 (Henderson et al. 2015). In other words, for every job lost in the 
agricultural sector there are 1.32 additional jobs lost in the rest of 
the economy.
    One benefit of agriculture is that production is spread over a wide 
area. As a result, natural disasters and other disruptions to 
production are quite common but typically have minimal impacts on the 
economy and markets. For example, the February 2, 2016 snowstorm that 
hit much of Nebraska and Iowa prevented many cattle from being 
transported from feedlots to packers and all but shut down the meat 
packing industry for 2 days, but the Fed Cattle markets did not deviate 
from their normal patterns. A similar early January snowstorm in Texas 
and New Mexico killed more than 30,000 dairy cows, and caused 
significant local damage. Market fundamentals tell us that when supply 
is decreased, prices should shift higher, yet milk futures only 
increased slightly and the higher prices lasted less than a week before 
declining again. The impact of the Texas snowstorm was only temporary 
because although the storm brought significant local damage, 30,000 
head of dairy cattle is relatively small when compared to the more than 
9.3 million head of dairy cattle in the entire United States.
    One of the greatest threats from agro-terrorism that we face is the 
introduction of a disease or pathogen that causes our export markets to 
be shut down. We saw one such incident in 2003 when a cow from 
Washington State was found to be infected with BSE, shutting down the 
majority of our beef exports (See figures 1 and 2 below). It took over 
7 years for U.S. beef exports to return to levels seen before the first 
BSE case was discovered. Despite a complete shutdown in U.S. beef 
exports that took several years to recover, cattle prices showed 
little-to-no impact as shown in figure 3 below.
                   impacts in plant-based agriculture
    Plant-based agriculture can be broken down into two general groups: 
Fruits and vegetables that are grown for direct human consumption and 
row crops that are typically grown for animal consumption or for 
additional processing that ultimately leads to human consumption. In 
the fruit and vegetable category, the biggest threat we face is the 
introduction of food-borne illnesses such as e-coli or salmonella. 
Leafy greens are of particular vulnerability due to their fragile 
nature that makes them difficult to clean as well as a consumer's 
tendency to eat them uncooked. Many fruits and vegetables are grown 
outdoors in the ground, where they are susceptible to contamination 
from natural sources such as birds, but are also easy to access by 
terrorists interested in introducing food-borne illnesses into the food 
system. While there is a system in place to detect, track, and recall 
contaminated foods, there is still room for improvement (Coates and 
Trounce, 2011).
    Row crop agriculture may also be susceptible to agro-terrorism and 
natural disasters, however the damage must be on a wide scale to have a 
significant impact on the economy. The biggest threat to our row crops 
is a wide-spread drought such as the one experienced in 2012. As shown 
in figure 4, the 2011 drought that hit the Southern Plains and then the 
2012 drought that swept through much of the Corn Belt and Southern 
Plains caused a substantial drop in corn production as well as a spike 
in corn prices. It took U.S. corn producers nearly 3 years to rebuild 
corn stocks to the point where markets have returned to a new 
equilibrium. The high grain prices caused by the 2011-2012 droughts 
were also responsible for the agricultural boom that the United States 
experienced in 2013 and into 2014. Farm incomes hit a record high in 
2013, which provided a boost to other agricultural businesses, caused 
farmland values to rise, and boosted the economies in several rural 
States. While the impact of the 2012 drought help some in the 
agricultural industry, others were harmed. Higher corn prices drove up 
costs for livestock producers, the ethanol industry, and ultimately it 
drove up food prices for consumers. While unlikely, a terrorist attack 
that can reduce production any individual row crop could cause similar 
impacts as the 2012 drought. However, if harm is inflicted on only one 
crop I would expect markets to return to normal much more quickly than 
they did following a drought that impacts the production of not just 
one crop, but several.
    In conclusion, upon examining past incidences of disruptions in 
production and trade across a variety of commodities, the U.S. 
agricultural sector has demonstrated a remarkable resilience. In most 
cases, it would be difficult for a terrorist to inflict damage on a 
large enough scale to have a lasting detrimental impact on the U.S. 
economy. If a terrorist were to succeed in inflicting damage on a large 
scale, the agricultural industry has proven that it can recover quickly 
from most threats. With the cooperation of individual industry groups, 
State governments, and the Federal Government in devising plans to 
respond to potential terror attacks or natural disasters, evidence 
suggests that damage from such disasters can be mitigated.
                               references
Coates, A. and M. B. Trounce. ``FDA Food Safety Modernization Act: Is 
it Enough?'' Journal of Bioterrorism and Biodefense. 2:109. 2011.

Decision Innovative Solutions, ``Economic Impact of Highly Pathogenic 
Avian Influenza on Poultry in Iowa.'' Prepared for Iowa Farm Bureau. 
August 17, 2015.

Henderson, James E., James N. Barnes, and Lawrence L. Falconer. ``The 
Economic Contribution of Agriculture and Forestry Production and 
Processing in Mississippi.'' Mississippi State University Extension 
Service. Publication No. 2879.

Pendell, Dustin L., Thomas L. Marsh, Keith H. Coble, Jayson L. Lusk, 
and Sara C. Szmania. ``Economic Assessment of FMDv Releases from the 
National Bio and Agro Defense Facility.'' PLoS ONE 10(6): June 2015.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. McSally. Great, thank you, Dr. Williams. As Chair, I 
now recognize myself for 5 minutes for questions. A lot of them 
stewing here, but I want to be efficient with my time and give 
my colleagues the opportunity to ask questions.
    This committee has very much been focusing on fusion 
centers and information sharing, not just between Federal 
partners, but between Federal, State, and local; not just on 
the Government side, but with private sector and others that 
would need a place, or maybe can be a place, regionally or 
State-wide, to come together and get the information that they 
need on threats and sharing information in both directions.
    I would love to hear perspectives from any of the witnesses 
on whether you have been invited or involved in any of the 
fusion centers, or whether that is an area that we also need to 
be improve to be inviting members related to the agriculture 
industry to address the agroterrorism threat, to have that 
information be shared at the fusion centers.
    Dr. Meckes. Chairman McSally, I will speak to our situation 
in North Carolina. As I indicated, the emergency programs 
division came into being in 2002, and they have been intimately 
involved with law enforcement, with our emergency management 
response teams all across the State of North Carolina with the 
fusion centers. Again, I would suggest that the emergency 
programs division model might be something that other States 
would consider, because it has taken the burden of trying to 
manage that piece of agriculture and food defense off of our 
veterinary division, in that this group focuses solely on what 
is needed for response. Of course, we are integrated with them 
on a day-to-day basis in all the activities. So yes, in answer 
to your question, North Carolina does have input and does 
receive input from the fusion centers and the emergency 
management.
    Ms. McSally. Is that all virtual, or do you have somebody 
who is invited there or sits there if something were to break 
out? Are there tactics, techniques, and procedures, TTPs, for 
you to have somebody there or how does that work?
    Dr. Meckes. In our planning for high-pathogen influenza, we 
actively engaged immediately our emergency operations center 
for the State of North Carolina, and we would have run the 
incident out of that emergency operations center.
    Ms. McSally. Okay, great. Any other witnesses care to 
comment on the fusion center? Mr. Acord.
    Mr. Acord. To my knowledge, there has been no discussion or 
contact from those centers with the pork industry. I haven't 
heard of any.
    I can make you aware of one circumstance where 
communication is not good, and that is with the National Animal 
Health Laboratory Network. The challenge that we have there is 
that most of the laboratories can't communicate with each 
other, and that is a serious, serious consequence of not being 
able to immediately post what you find in a laboratory in 
Minnesota, in Iowa, in Kansas, and that has to be fixed if we 
are going to have an effective system, and it currently doesn't 
work.
    Ms. McSally. Interesting. Dr. Beckham.
    Dr. Beckham. That goes back to biosurveillance and having 
the ability for systems to communicate with each other to 
include the laboratory systems. As currently stands right now, 
the ability for those labs to message test results and 
communicate with one another, as Dr. Acord says, is not as 
robust as it could be. In addition, getting information from 
the field, from the veterinarians to the State animal health 
official, or to other officials who need to have that 
information, right now there is not a really robust system out 
there for that. There are some efforts underway that are all-
of-enterprise efforts from the industry to the State animal 
health official, to the Federal Government that have been 
funded by the Department of Homeland Security and that are 
being coordinated with USDA to develop surveillance systems 
that ultimately can talk between each other in the diagnostic 
labs, but to date, obviously that is still underway, and that 
has not reached its full potential, much less even broached the 
idea of communicating with our public health sector.
    Ms. McSally. So, we had a hearing about 2 weeks ago taking 
a look at biosurveillance systems, and particularly, looking at 
the National Biosurveillance Integration Center. So is that a 
place where--I mean, there is a lot of shortfalls and 
shortcomings to that, but in Nirvana, in a perfect world, is 
that a place that should be integrating this information in a 
two-way, and across regionally as well?
    Dr. Beckham. So I think there are some challenges 
associated with that. I think some of the challenges are the 
willingness to share information. Someone has to act as a 
trusted agent, which is kind of what I alluded to in my 
testimony. The industries, I believe, are willing to share 
information, but that information has to be protected, and 
there has to be clear policies and procedures on how one will 
react to certain types of information.
    So those things need to be worked out, and, I think, you 
know, one of the projects that I had previously worked on in 
academia with industry was really headed that way so that you 
could get people to share information. But more importantly 
than getting them to share, you have to give them something 
back for it. They can't just give you information and you not 
give anything back.
    So, it is a two-way street, there has to be good 
communication and there has to be trust, and I am not sure that 
NBAF is the place for that. I would let my other witnesses up 
here comment on that. I think Doug is ready to do that. But I 
can sure tell you that academia is a good place, or maybe 
another third party that can act as a trusted agent would be a 
great place to hold information, or to share information.
    I will say one more thing, and the unique thing about some 
of the systems out there now is that you actually don't even 
have to hold the information, you can reach back to that 
information and gather that information and only use it when 
you need to use it; therefore, it stays with the owner, the 
actual owner of the information. So that is another way getting 
access to information and being able to utilize information, 
but not storing information in big databases, which can 
sometimes be very vicarious.
    Ms. McSally. When you were saying that, it made me think of 
a parallel that we had with a cybersecurity and information 
sharing among the private sector and with the Government, and 
we actually passed legislation out of this committee providing 
some protections to the private sector to build that trust in 
liability issues so that there could be sharing of what the 
appropriate threat information is. So I wonder if that is a 
model to look at for a similar challenge within this industry. 
I have some more questions but I am out of time. So I will go 
on a second round here. So I want to give some time to Ranking 
Member Payne for 5 minutes.
    Mr. Payne. Thank you, Madam Chair.
    This question is for all the witnesses. What is the biggest 
gap in our ability to prevent and mitigate the effects of an 
agroterrorism event? What is the most critical investment we 
can make to prevent such an event?
    Dr. Beckham. Early detection, early detection is key, 
right? So we have got to know something is here. We have got to 
be able to localize it, keep it localized. So early detection, 
biosurveillance, the National Animal Health Laboratory Network, 
the investment on these laboratories, the investment of that 
infrastructure is absolutely critical.
    You heard earlier today vaccines are an issue for foot-and-
mouth disease. I will take that one step further: Look at the 
funding we put into HHS and the funding in the Strategic 
National Stockpile, and then compare that to what we put into 
the National Veterinary Stockpile. We do not have the funding 
to prepare this Nation to respond to with vaccines and 
diagnostics that we need. So I would say that is a large gap as 
well.
    So for me, it is early detection and then the 
countermeasures to respond, but the funding has to be there 
similar to what we see on the human side of the house. We have 
a zoonotic disease incursion, we have got to have the 
capabilities to respond. In order to do that, we have to have 
the resources allocated before. We cannot be reactive, we have 
to be proactive.
    Dr. Meckes. Just to provide an order of magnitude of the 
funding for the National Veterinary Stockpile, $1-2 million per 
year, contrast that to the strategic National stockpile, which 
is $3-4 billion a year. I suspect the strategic National 
stockpile throws away more drugs that are expired on an annual 
basis than the entire budget of the National veterinary 
stockpile. We have to begin to address that issue. Foot-and-
mouth disease is the barbarians at the gate. It is just a 
matter of time before it is introduced into this country, and 
we cannot stop the spread of that disease.
    Mr. Acord. For the livestock industry, I think it would 
have to be an adequate supply of foot-and-mouth disease 
vaccine, that is really the thing that scares us the most. I 
agree with Dr. Beckham that early detection and rapid response 
is the mantra that we have to follow. But we know right now 
that we do not have an adequate supply of FMD vaccine, nor do 
we even have a vaccine for something like African swine fever 
that has spread rapidly through Russia and into eastern Europe. 
It is only a matter of time before it moves elsewhere. We have 
to address those things. We can't continue to talk about it. 
USDA puts in about $1.9 million into the vaccine bank. That is 
a pittance compared to the loss that we would suffer with a 
foot-and-mouth disease outbreak.
    Mr. Williams. I would mirror what Dr. Beckham and Mr. Acord 
have said. The key is early detection and taking care of things 
as soon and as quickly as possible. The quicker that we stop 
the spread of any such disease, the less economic impact that 
we are going to have. So, that is, to me, really the key, is 
getting on top of this as quickly as possible and doing 
everything we can to have a response plan in place, whether its 
vaccination, or other measures, to really get on top of this 
and prevent it from spreading.
    Mr. Payne. Thank you. Mr. Acord, in your testimony, you 
acknowledge that every passenger and handbag entering the 
United States has a potential to import a disease that could 
harm the agriculture industry. In your opinion, is the United 
States doing enough to keep diseases and pests out of the 
United States? What should be done--what more should be done?
    Mr. Acord. Well, I think the effort has improved 
dramatically to address this issue. We are looking at an almost 
impossible job when you--I have spent a lot of time at the 
Miami International Airport, and I take pork producers there 
all the time so that they can see what is intercepted at the 
Port of Miami. In a few days, in a few days, you have a 
mountain of intercepted material, and it is unbelievable what 
people want to bring in, and they have all kinds of opportunity 
to declare that they have something, but they don't. I saw one 
passenger from Venezuela was literally bringing a grocery store 
in a suitcase, and said they have nothing. Thank goodness for 
the dogs.
    One of positive things that has happened, and I never 
thought I would say this at the time, but moving the 
agriculture inspectors to the Bureau of Customs and Border 
Protection was a very, very smart move. When I talked to those 
inspectors now, they tell me that the improved enforcement 
authority that they have through the Customs laws has 
contributed immensely to their ability to do their job. We have 
to spend more time at the country of origin, and the country of 
departure rather than the border. That is literally our second 
line of defense.
    We are going to have to put more people in these countries 
if we expect to have any possibility of finding out what is 
going into these products in the first place that is, like I 
say, about the PED, however that got in, that same pathway is 
still open for FMD for which we have no vaccine. So we just 
have to direct more resources to country of origin, I think.
    Mr. Payne. Thank you. Madam Chair, I yield back.
    Ms. McSally. Thank you, Ranking Member Payne. The Chair now 
recognizes Mr. Donovan from New York for 5 minutes.
    Mr. Donovan. Thank you, Madam Chair. Mr. Acord, Mr. Payne, 
and I would like you to visit Newark International Airport as 
well, please, that is our airport.
    Everyone here has spoken about early detection, and it is 
so multifaceted when you think about home-grown products and 
livestock, imported products and livestock. How are we doing 
this early detection? First, maybe we could do it domestically. 
Are the people on the ground trained to detect, or do we wait 
until someone gets sick and then try and find out the origin of 
that illness? How is it that we are doing early detection? 
Certainly, if we are doing it, whatever methods we are using 
now, how can they be improved? I open that up to the panel.
    Dr. Meckes. Member Donovan, I would suggest that that takes 
place at the State and local level. The State animal health 
officials, my team within the veterinary division that is on 
the ground every day with pork producers, with poultry 
producers, with beef and dairy producers, we are out there 
seeing animals, we are talking to the producers, we are working 
closely with private practitioners. That is where we will 
detect the disease. Rightly, that should be the case. We are in 
touch with everything that goes on in our respective States.
    Dr. Beckham worked closely to develop a program 3 years ago 
called enhanced passive surveillance, which was a means of 
identifying diseases early in animal agricultural production. 
It was almost like emergency room visits that were recorded and 
tracked on a day-to-day basis.
    So, we have to make sure that capability exists. I am going 
to suggest that DHS has a unique role in all of this, and, of 
course, I draw upon my 7 years in the Office of Health Affairs, 
but USDA has a significant regulatory responsibility. DHS has a 
significant threat reduction responsibility, and it should work 
to enhance capabilities all across the country in preparedness 
and response.
    A perfect example of that would have been the Center for 
Domestic Preparedness in Anniston, Alabama. The Ag Earth 
program, the Ag Emergency Response Training Program. After 5 
years of successful operation, FEMA discontinued funding for 
that program because it was perceived as a non-issue for our 
country.
    Obviously, it remains an issue and will be an issue. So DHS 
should step up, and appropriately so, work on the threat side, 
work on the preparedness side, and work on the response side 
with States all over the country.
    Mr. Donovan. Doctor.
    Dr. Beckham. I would just echo what Dr. Meckes said, and 
say that, of the veterinarians we are training every day, and 
the colleges of veterinary medicine, and the ones that are out 
practicing, are really the first line of response.
    Early detection is multifaceted, so it is heavily dependent 
on the producers recognizing there is something wrong, calling 
that veterinarian, getting them out there. Then through this 
system, that Dr. Meckes mentioned, we have the capability of 
collecting that information on multiple devices and bringing 
that in and having veterinarians have the capability to share 
that through multiple devices as well, so if they are seeing 
something that is unusual in one area, they can share it with 
each other and say: Hey, is anybody else seeing this?
    Those are the kinds of systems we have to develop, and 
those are the kinds of systems we have to implement if we are 
going to have a comprehensive program for early detection that 
really relies on the first responders, the veterinarians, and 
the producers that then works with our State veterinarians to 
and get all that information back.
    Mr. Donovan. Is it more difficult to detect a disease in 
our grown products, our agriculture products, than it is 
livestock? It sounds like, not that it is easy to detect with 
livestock, but it seems like there may be more signs.
    Dr. Beckham. You will see clinical signs, right, exactly.
    Mr. Acord. I would agree with Dr. Beckham and Dr. Meckes. I 
think the private practitioner is the first person that is 
going to be the one to find a foreign animal disease in the 
United States.
    The pork industry spends a great deal of time talking to 
our producers. We have educational material, that they were 
provided, that encourages them to report any unusual 
conditions, that they observe, to both their local veterinarian 
and subsequent to their veterinarian, to the State 
veterinarian.
    We have a foreign animal disease diagnostic training 
program, at Plum Island Animal Disease Center, where foreign 
animal disease diagnosticians are trained to recognize the 
symptoms of disease. That certainly could be expanded to 
include a larger number of people because it is very unique 
training where they actually get to see the disease. These 
animals are infected with foot-and-mouth disease, so they can 
see first-hand the symptoms. I think we have a start, I guess 
that is how I would characterize it.
    Mr. Donovan. My time is expired. I would like to, if we do 
a second round, ask you about how we do this detection for 
things that we import. But, Madam Chair, I yield the rest of my 
time, which isn't any.
    Ms. McSally. Thank you, Mr. Donovan. The Chair now 
recognizes Ms. Watson Coleman from New Jersey for 5 minutes.
    Mrs. Watson Coleman. Thank you very much. I have a number 
of questions which have been prompted from just listening in 
and out. We talked about detection, and we are talking about 
elimination, and we are talking about vaccines. I want to go 
before that. Are there standards that people who grow crops 
have to follow, people who grow livestock have to follow?
    Are there standards to ensure that these products are being 
grown and these livestock are being bred and surviving under 
certain standards for safety? Is there such a thing, and if so, 
who is responsible for policing that or monitoring that? What 
is the process for that?
    Dr. Meckes. Well, I will say first and foremost that the 
marketplace drives those standards. If you are a producer of 
pork, if you are a beef producer, if you are a dairyman 
producing milk every day, you want to meet those market 
standards to be assured that your product can go to market.
    Mrs. Watson Coleman. Yeah, that is taste and stuff. I am 
talking about are there standards that you can only grow in 
this kind of soil this? You have to do this in order to protect 
a plant that is growing. If it is livestock, it can only be 
bred under certain circumstances. They can only be fed under 
certain circumstances. Ways that you would prevent diseases and 
things of that nature, as opposed to waiting until something 
happens and then having the capacity to detect it. I just want 
to know if there is any such thing?
    Mr. Acord. Well, in the pork industry, we have the Pork 
Quality Assurance Program, which sets some standards that 
determine issues like animal welfare, animal health monitoring, 
those kind of things. That does exist, and there is a great 
deal of education of producers that goes into implementing that 
program.
    Mrs. Watson Coleman. Who monitors that that is actually 
happening? Are those Federal standards?
    Mr. Acord. No, ma'am. They are not Federal standards.
    Mrs. Watson Coleman. They are industry standards?
    Mr. Acord. They are industry standards. I would suggest to 
you that there would be a great reluctance, and an absolute 
opposition, by producers to be confined by any kind of Federal 
standards as to how they raise livestock and produce crops. I 
think the industry would view that as probably un-American, 
quite honestly, to see that.
    Mrs. Watson Coleman. Even if the goal is to make sure that 
livestock and veggies and whatever are produced in a healthy 
way so that you don't have these various diseases?
    Mr. Acord. I don't think you can regulate industry or 
production of anything to that extent. There aren't enough 
resources to monitor how that is done and, quite honestly, we 
can pass all kinds of regulations. It is the ability to enforce 
those regulations that makes a difference.
    Mrs. Watson Coleman. Yeah. I was kind of trying to get at 
that also. Are there standards? Who monitors? Should there be 
monitoring? You are saying that such a thing isn't very viable 
in the industry. I know that the producers would probably 
resist it, but I am just wondering, does Government have a role 
in that, and if so, what would it be?
    I can go on to some other areas because--and I think it was 
you, Mr. Acord, I think you said that there is no FMD vaccine? 
Does that mean you have none stockpiled or that none exists 
because there is no vaccine? I don't know.
    Mr. Acord. Well, there is a limited availability of 
vaccine.
    Mrs. Watson Coleman. So there is a vaccine, but it is not 
available?
    Mr. Acord. At Plum Island Animal Disease Center is where 
the United States maintains its bank. That is the bank for 
North America. You know, Canada, Mexico, and United States, all 
would use it. The antigen is stored there because the law 
prohibits live FMD virus on the U.S. mainland. That antigen is 
shipped to Europe where it is manufactured into finished 
vaccine and shipped back to the United States, but it has such 
few strains. The problem with it is that the antigen has a 
shelf life.
    Mrs. Watson Coleman. That is what I was going to ask you. 
Does it have a shelf life?
    Mr. Acord. After 5 years, the potency of vaccine starts to 
go down, and after 10 years it is not all that effective quite 
honestly, and the companies don't even want to touch the 
manufacture at that point.
    Mrs. Watson Coleman. So one thing that I read, is that, 
there are so many entities and agencies involved in this whole 
discussion that we are having today, Madam Chairman, and I need 
to understand what would be the most efficient involvement of 
agencies and the most efficient collaboration that could take 
place that is information sharing and facilitated and not 
impeding and not delayed because there are just so many cooks 
in that pot.
    I guess I will have to wait until the next round to hear 
the answer to that, but that certainly is something that I 
think we need to be exploring. Thank you very much.
    Ms. McSally. Thank you. The gentle lady yields back. The 
Chair now recognizes Mr. Walker from North Carolina.
    Mr. Walker. Thank you, Madam Chairwoman. Insider threat, 
seems to be a significant danger. If there was an attack, would 
it be able to establish a chain of command? Is there any kind 
of protocol? Maybe, Dr. Beckham, would you touch on that, or 
Dr. Meckes, either one----
    Dr. Beckham. I am going to let Dr. Meckes because they 
handle it at the State level typically.
    Dr. Meckes. We follow the incident command structure to 
respond to any incident, whether it is a hurricane, a tornado. 
We have just spent the last 7 months preparing for the 
introduction of High Path AI in North Carolina, which 
thankfully has not come to pass; but we developed our entire 
incident command structure to address every issue associated 
with an outbreak of High Path Avian Influenza.
    Everything from burial and disposal to the movement of 
samples to the laboratory for testing, routing of vehicles to 
make certain that we can effectively continue to move product 
and maintain some continuity of business, even in the face of a 
disease outbreak. So FEMA's incident command structure is the 
hierarchy by which we will operate, and practically speaking, 
every Department of ag across the country is familiar at some 
level with this incident command structure.
    Mr. Walker. Being a little privileged to the North Carolina 
situation, being your home base, North Carolina is ranked at 
the top, or at least in the top 5, really in all areas of this 
emergency preparedness. I commend your work on behalf of doing 
your part in the agriculture side to keep it so highly ranked.
    Dr. Meckes. Well, it hasn't been my work. It has been my 
predecessors'. I thankfully walked into a well-oiled machine to 
respond to incidents.
    Mr. Walker. Well as we have seen around here at the State 
level, you have to have good people to keep those machines 
going. Otherwise they can end abruptly.
    Getting outside of North Carolina, are you familiar--does 
anybody want to address that--across the country, in our 
Agriculture Emergency Operations Center, are we seeing good 
capability across the country? Are we being followed as a 
model--can anybody address that?
    Dr. Meckes. There is a spectrum of capability across the 
country, a wide spectrum. I think, again, that is where DHS has 
a role in working towards, with USDA--now when I say DHS, we 
always were diligent in making sure that we cooperated, 
cooperated, coordinated, and collaborated with our sister 
departments and agencies in addressing any of these issues. So 
we held a Foot-and-Mouth Disease outbreak with FEMA Region 7 in 
December 2013, and every player was at the table, the States, 
the locals, and DHS, and HHS for that matter.
    So it has to be an integrated effort, but DHS does have a 
significant role and an important role in driving preparedness 
and response capability.
    Mr. Walker. I have a final question, but I am not so sure I 
want to ask it publicly. It may come back with you. Where it 
talks about America's food, agricultural sector, where is the 
most vulnerable target that we have to agroterrorism, but that 
may be a question better not shared publicly.
    So with that I am going to I yield back the balance of my 
time, back to you, Madam Chairwoman.
    Ms. McSally. Thank you. The gentleman yields back. We will, 
I think, be voting soon, but I want to give an opportunity for 
second round here until votes are called. I appreciate the 
thoughtful questions and discussion so far.
    One concern we have seen across many industries with the 
rise of terrorism, and ISIS, and the home-grown extremism, is 
the potential use of drones for some sort of attack, and it 
doesn't take much imagination to consider how, I mean, people 
are getting these for Christmas, and they are much cheaper and 
easier to buy now, how that could be used in such a way to 
deliver something to a crop or to a farm to have an 
agroterrorism attack.
    Is that something that is even being looked at, at all by 
any of you, and any ideas and considerations for addressing 
this difficult threat?
    Mr. Acord. While it is an additional potential for 
introduction of disease, I don't see it creating anything new, 
because agriculture is so open. Animal production is so open. 
There is access to farmland and to barns rather easily, so I 
don't think that is going to pose anything additional in terms 
of worry for the agriculture industry.
    Dr. Meckes. Chairwoman, I will share with you that during 
the past virus outbreak which began in April 2013, and arrived 
in North Carolina shortly thereafter, that our colleagues in 
the environmental realm used drones to surveil disposal of 
piglets that had died all throughout eastern North Carolina, so 
that was a concern.
    We obviously did our best to make certain that we didn't 
create an environmental problem associated with an agricultural 
disease outbreak, but who knows where this goes in the future. 
It may well be a concern.
    Ms. McSally. I mean, they can be used positively as well 
obviously for surveillance.
    One question, Dr. Beckham. I have a lot of friends who are 
veterinarians, so this is more anecdotal, both small animal and 
large animal, but one thing they share is there are fewer and 
fewer people that are choosing that field of work. It is 
becoming more and more expensive. They are going, like a lot of 
higher education, but they are going significantly into debt, 
and so it is a bit of a deterrent to even choose the field. So 
part of making sure that we are ready in this area is making 
sure that we have the next generation being trained up.
    I know at the University of Arizona anyway, they are trying 
to do a bit of an innovative program to compress the number of 
years for the Bachelor's and moving on from there, and also 
something innovative that would impact rural communities where 
an individual would graduate as a Doctor of Veterinary 
Medicine, but also have a Nurse Practitioner license so that 
the human-animal bridge could be addressed in some of these 
rural areas. I think some of those innovations would actually 
help in this area as well.
    Are there any other innovative ideas out there? I think 
that is an interesting model perhaps. Are you concerned about 
the pipeline and training of the next generation?
    Dr. Beckham. So I am incredibly concerned about it, which 
is actually why I went to Kansas State University to be the 
dean there. I think it is something as a profession we have to 
address. We are producing about 80 percent small animal 
veterinarians for a variety of reasons, and we are losing the 
expertise that is going back to detect the work in the 
livestock systems and production animal medicine. There is a 
whole host of reasons why that is happening.
    We as a profession have to come together and look at novel, 
innovative ways to get students in and out with less student 
loan debt. We have to give them additional skill sets, like you 
mentioned the nurse practitioner. We at Kansas State University 
pride ourselves on the fact that we still have one of the 
locations that produce quite a bit of students that go out into 
production animal medicine. We have a rural veterinary loan 
program where we will pay tuition for those that agree to go 
back into Kansas and work in rural areas. We have to continue 
to look at novel, innovative ways to do that.
    So we are starting to look at that as well; how do you 
compress the time it takes a student to get in and then get 
out; are there ways that we can do it more efficiently, and 
those types of things. But we as a profession have to take a 
look at that across the United States. That is something I 
think we are starting to do, but I don't know that we have done 
that aggressively enough.
    Ms. McSally. I encourage you to take a look at what they 
are doing from the bottom up, you know, groundbreaking, at the 
University of Arizona, because it seems likes it is pretty 
innovative. Where a program doesn't exist, it is easier to 
create an innovative one as opposed to trying to change a 
program, so that kind of sharing best practices I think would 
help.
    I know we are going to vote, so I yield back the balance of 
my time, and I will recognize Mr. Payne for another 5 minutes.
    Mr. Payne. Thank you, Madam Chair. Mr. Williams, you 
mentioned biosecurity measures developed by the poultry 
industry following the Avian Flu outbreak and how the model 
developed by the poultry industry can be applied across various 
agriculture industries. Can you elaborate on the best way for 
the public and the private sectors to help drive participation 
and adopt biosecurity measures that are mutually beneficial to 
each other?
    Mr. Williams. Well, just to kind of talk a little bit more 
about what I have seen in the State of Mississippi. After the 
Avian Influenza outbreak a year ago, producers were incredibly 
concerned and so they were very willing to come to the table 
and to work with the State veterinarian, to work with the USDA, 
to work with APHIS, in developing these plans.
    I think really what it comes down to is we need a boots-on-
the-ground approach. These producers that we were talking to, 
that we were discussing this with over the summer, we were 
giving them signs to look for. That is something that our 
veterinarians can really help with, is not only with poultry, 
but with beef cattle, with the pork industry, tell them and 
inform them, what do we need to look for, for signs of a 
potential outbreak? Then when you see these signs, when you see 
these symptoms, report them immediately to your State 
veterinarian, to your local veterinarian, and have it 
investigated.
    We were even talking about backyard birds, backyard poultry 
farmers, or backyard poultry operations, if you see something, 
report it immediately. That is really the system that they have 
started to get in place to recognize things as quickly as we 
possibly can, to get on top of it, to quarantine the area, and 
to localize it as much as possible.
    Mr. Payne. So if you see something, say something, right?
    Mr. Williams. Exactly.
    Mr. Acord. May I comment, sir?
    Mr. Payne. Sure.
    Mr. Acord. The pork industry has always prided itself on 
having a very good biosecurity system. That is because of the 
structure of the industry, we know that we are more vulnerable 
to disease. But at the same time, while we thought we had the 
perfect system, when we had the PED outbreak, we discovered a 
lot of holes in that system, and we have begun working on 
those.
    The other point I want to make, and it hasn't been brought 
up here, is we have a huge threat from urban animal 
agriculture. It is unbelievable how much poultry, even now into 
potbelly pigs, to sheep and goats in some places are kept in 
urban environments. They totally escape the animal health 
network, and are the most vulnerable to disease introduction, 
and that is an area that we have to start paying much more 
attention to than we have up to this point.
    We have had problems with live bird markets in New York and 
places like that, but that is nothing compared to what we saw 
in Los Angeles when we had exotic Newcastle disease in poultry 
there. So that is another vulnerability that we haven't looked 
at hard enough.
    Mr. Payne. Thank you. Dr. Beckham, it is my understanding 
that Kansas State partnered with FEMA to develop an animal 
disease outbreak training course. Can you describe how KSU is 
working with FEMA to push out this training opportunity?
    Dr. Beckham. I think that falls under the Biosecurity 
Research Institute, where they are actually using that facility 
to train veterinarians on signs and clinical symptoms for 
foreign animal diseases, and so it is a novel use of that 
facility to be able to bring veterinarians in and provide that 
kind of training there in Kansas, so it is really unique, and 
it aligns closely obviously with what happens at the Plum 
Island Animal Disease Center.
    So the more we can do those kinds of things outside of 
containment in Plum Island and demonstrate those types of 
diseases and whether it is using plasticized material or 
tissues to do that, that is at least one component of training 
a cadre of veterinarians that can go out there and do that. 
There are many of those foreign animal disease diagnostic 
practitioner courses that happen at Colorado State as well. So 
they also happen other places in the United States, so there is 
the FADD course, the Foreign Animal Disease Diagnostician 
course at Plum Island; and then there is other courses that 
happen around the United States, at K State, at Colorado State, 
that use different technologies to teach the same type of 
information.
    Mr. Payne. Thank you. Madam Chair, I yield back.
    Ms. McSally. Thank you. The Chair now recognizes Mr. 
Donovan from New York.
    Mr. Donovan. We are being told votes are going to be in 
about 2 minutes, so let me just ask the question I wanted to 
ask in the first round. We spoke about domestic protection. 
Since we import so many products, where is our importation 
detection? Where are we making the detections internationally 
for products being brought into the country?
    Mr. Acord. I can speak from the Animal and Plant Health 
Inspection Service standpoint that a risk assessment is done 
anytime there is a request to import or to export a commodity 
from another country to the United States. They are asked to 
provide a lot of information about the existence of disease 
within their country. What kind of surveillance do they have, 
do they have competent authority, do they have enough 
veterinarians to deal with disease? Those kind of fundamental 
questions. Sometimes it results in a site visit, most often 
actually it is a site visit to go look at the country and see 
if what they are telling the United States is true, and then 
there is a formal risk assessment that is done.
    But there are a lot of products, that are getting into this 
country, that are not getting the kind of review in country 
that they need from the standpoint of the manufacture of those 
products. So we have a gap in that area and not enough is being 
done. We cannot rely on the port of entry as being the first 
line of defense. That is not going to work. We have proven 
that.
    Mr. Donovan. You are speaking about cooperative countries. 
If something is introduced into our imported foods 
purposefully, all the help, with the exporting country, isn't 
going to help, so are we doing any detection methods for 
products coming in aside from relying on the exporting country, 
that you are aware of?
    Dr. Meckes. There is a group within DHS that, as Bobby 
mentioned, reviews product shipping invoices on a day-to-day 
basis and inspects those that have the greatest risk or the 
greatest perceived risk. But that being said, less than 2 
percent of all products imported in the United States are 
physically inspected in any form or fashion.
    So Mr. Donovan, you are correct, that someone with less 
than stellar intent could intentionally bring something into 
this country that would never be physically observed.
    Mr. Donovan. Maybe as my colleague, Mark Walker said, maybe 
we shouldn't have said that publicly. Madam Chair, I think that 
was the roll call. I will waive the remainder of my time.
    Ms. McSally. Okay. Great, Mr. Donovan. The gentleman yields 
back.
    Just in closing, in my time in the military, we always 
would talk about threat equals capability plus intent. Clearly 
we have heard today from our witnesses the capabilities are 
there. We do also know that the intent is there for potential 
agroterrorism attack.
    We do know, I was looking back at my notes, in 2002 we had 
a Navy SEAL team raid al-Qaeda storehouse caves in Afghanistan, 
finding documents how to carry out a terror attack on America's 
agriculture. As you mentioned, Dr. Beckham, these types of 
agents naturally exist in places controlled by ISIS, Boko 
Haram, al-Shabab, and others. I quote former Secretary of 
Health and Human Services, Tommy Thompson, when he, in his 
farewell address, when he left in 2004, which is 12 years ago, 
he said: ``For the life of me I cannot understand why the 
terrorists have not targeted our food supply, because it is so 
easy to do.'' Again, we hold this hearing not to instill fear 
in the American public, but to raise awareness on what the 
threats are, what the capabilities are, and what the intent is, 
and identify what we can do as a Federal Government, but 
working closely with the private sector, States, local 
authorities, and academia in order to address these 
vulnerabilities and these threats in order to keep our country, 
our food supply, our agricultural system, safe and secure from 
these types of threats.
    That was a great hearing, and I appreciate all the 
witnesses' testimony today.
    I do want to say, closing out my final hearing here, you 
are all in good hands. I am handing over the gavel to Mr. 
Donovan. It has been a pleasure to be chairing the 
subcommittee. I enjoyed working with Ranking Member Payne. 
Again, I will be remaining on the subcommittee, but we will 
continue to move forward on some of these really pressing 
issues.
    I want to thank all the witness for their expertise in this 
area and your hard work and your testimony today. The Members 
of the subcommittee may have some additional questions for the 
witnesses. We will ask that you respond to these in writing. 
Pursuant to Committee Rule 7(e), the hearing record will be 
open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
